APPENDIX

1a

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
________________________________
No. 18-3419
________________________________
Michael G. Vogt
Plaintiff – Appellee
v.
State Farm Life Insurance Company
Defendant - Appellant
________________________________
WASHINGTON LEGAL FOUNDATION; CHAMBER OF
COMMERCE OF THE UNITED STATES OF AMERICA;
AMERICAN COUNCIL OF LIFE INSURERS
Amici on Behalf of Appellant(s)
Public Citizen
Amicus on Behalf of Appellee(s)

2a
________________________________
No. 18-3434
________________________________
Michael G. Vogt
Plaintiff - Appellant
v.
State Farm Life Insurance Company
Defendants‐Appellees.
________________________________
Appeals from United States District Court
for the Western District of Missouri —
Jefferson City
________________________________
Submitted: November 13, 2019
Filed: June 26, 2020
________________________________
Before SHEPHERD, GRASZ, and KOBES, Circuit
Judges.

3a
SHEPHERD, Circuit Judge.
This case comes to us as a class action by over
25,000 life insurance policyholders who allege that
State Farm Life Insurance Company (State Farm) impermissibly included non-listed factors in calculating
Cost of Insurance (COI) fees assessed on life insurance
policies. Following a jury trial, the jury returned a
$34 million verdict in the class’s favor. State Farm
appeals, asserting that the district court committed
various errors, including with respect to summary
judgment, class certification, and evidentiary rulings.
Michael Vogt, the named plaintiff, cross appeals, arguing that the district court erroneously denied the
class prejudgment interest. Having jurisdiction under
28 U.S.C. § 1291, we affirm with respect to State
Farm’s appeal and reverse and remand with respect
to Vogt’s cross appeal.
I.
In 1999, then 54-year-old Vogt purchased a State
Farm flexible premium adjustable whole life insurance policy. In contrast to a standard life insurance
policy, this type of policy provides benefits in addition
to the typical death benefits, which results in the policy including investment, savings, or interest-bearing
components. The terms of the policy explicitly allowed
State Farm to make monthly deductions from the policy for “(1) the cost of insurance, (2) the monthly
charges for any riders, and (3) the monthly expense
charge.” Specifically as to the COI, the policy provides:
Monthly Cost of Insurance Rates. These
rates for each policy year are based on the Insured’s age on the policy anniversary, sex, and

4a
applicable rate class. A rate class will be determined for the Initial Basic Amount and for
each increase. The rates shown on page 4 are
the maximum monthly cost of insurance rates
for the Initial Basic Amount. Maximum
monthly cost of insurance rates will be provided for each increase in the Basic Amount.
We can charge rates lower than those shown.
Such rates can be adjusted for projected
changes in mortality but cannot exceed the
maximum monthly cost of insurance rates.
Such adjustments cannot be made more than
once a calendar year.
R. Doc. 167-2, at 11 (emphasis added). These enumerated factors are so-called “mortality factors” because
they relate to a policyholder’s mortality risk, which allows the insurer to determine the projected mortality
estimate of a policyholder based on his specific circumstances.
Vogt surrendered the policy in 2013. Dissatisfied
with the COI fees, which increased throughout the
time he held the policy, Vogt consulted an attorney
and an actuarial expert, who determined that State
Farm had been using non-enumerated factors unrelated to a policyholder’s mortality risk to calculate the
monthly COI fees. These “non-mortality factors” included taxes, profit assumptions, investment earnings, and capital and reserve requirements. Vogt asserts that, by including non-mortality factors in the
COI rates, State Farm deducted from the monthly
premium payments more than what the policy stated
would be included in the COI fees. Vogt thereafter
filed suit in 2016, asserting breach of contract and
conversion claims against State Farm based on State

5a
Farm’s alleged use of unauthorized, non-mortality factors to calculate his COI fees, which it collected during
the time that Vogt held the life insurance policy. State
Farm then moved for summary judgment, arguing, in
relevant part, that the policy language regarding the
COI did not limit State Farm to calculating the COI
based on the specified factors only. The district court
denied State Farm’s motion, concluding that no reasonable person would understand that State Farm
would use non-listed factors to calculate the COI when
the policy stated the COI would be “based on” enumerated factors. The district court determined that, at a
minimum, the policy was ambiguous and should be
construed against State Farm.
Vogt then sought to have a class certified composed of similarly situated policyholders. The proposed class members were individuals who obtained
life insurance from State Farm between 1994 and
2004 under the same policy form as was used for Vogt.
Over State Farm’s objection, the district court certified a class of approximately 25,000 individuals who
currently or previously owned a State Farm-issued
life insurance policy of the same form in the State of
Missouri.
The district court held a pretrial hearing, during
which it invited Vogt to make an oral motion for summary judgment. As relevant, Vogt moved for summary judgment on issues of liability and State Farm’s
statute-of-limitations defense. The district court
granted the motion in part, concluding that Vogt had
established liability for breach of contract, leaving
damages as the only issue to be tried to the jury, and
concluding that as a matter of law, Vogt’s claims were
not time barred. The district court denied, however,

6a
Vogt’s motion for summary judgment on the conversion claim based on a genuine dispute as to an identifiable corpus converted from each class member, noting that “[w]ithout establishing the corpus that State
Farm purportedly converted from each member of the
class, Plaintiff cannot establish conversion.” R. Doc.
335. In other rulings, the district court ordered that
State Farm was precluded from referencing the maximum COI rates under the policy and presenting evidence that State Farm never exceeded this amount.
The district court similarly precluded State Farm’s actuarial expert from testifying about an actuarial
memorandum that State Farm asserted was relevant
to the question of whether it pooled mortality rates, a
process by which all policyholders of the same age,
sex, and rate class have their policy duration blended
or “pooled” together, regardless of how long individual
policyholders have actually held the policies. Finally,
the district court allowed Vogt to introduce damages
models to the jury, overruling State Farm’s objection
that the models had not been disclosed to State Farm
until shortly before trial.
At the close of the evidence at trial, State Farm
moved for judgment as a matter of law under Federal
Rule of Civil Procedure 50(a), which the district court
denied. The jury returned an award of damages for
the class in the amount of $34,333,495.81. State Farm
moved to decertify the class, arguing that some class
members did not suffer damages and that conflicts existed among the class members. The district court denied the motion. State Farm then filed a motion for
judgment as a matter of law under Federal Rule of
Civil Procedure 50(b) and for a new trial under Federal Rule of Civil Procedure 59. In its motion for judgment as a matter of law, State Farm challenged Vogt’s

7a
damages models as unreliable, speculative, and invalid, arguing that they could not support the jury’s verdict. In its motion for new trial, State Farm cited several erroneous evidentiary rulings warranting a new
trial, the district court’s granting of an oral motion for
summary judgment, and the district court’s jury instruction on the conversion claim. The district court
denied both motions. The district court also denied
Vogt’s motion for an amended judgment insofar as it
sought an award of prejudgment interest based on its
finding that the parties had contractually agreed to an
interest rate, but granted the motion insofar as it
sought to add a class definition, to award postjudgment interest, and to approve allocation of damages.
The district court then entered judgment, slightly reducing the jury award to $34,322,414.84 to reflect optouts received from class members after the commencement of the jury trial.
State Farm appeals and Vogt cross appeals. The
parties agree that Missouri law applies in this diversity action.
II.
State Farm’s central argument before the district
court and again on appeal involves the interpretation
of the clause in the insurance policy that allows State
Farm to collect COI fees from policyholders. State
Farm asserts that the grant of partial summary judgment, based upon the district court’s conclusion that
the policy language did not allow State Farm to formulate the COI based on factors in addition to those
expressly listed in the policy, was erroneous. “We review de novo a district court’s grant of summary judgment, viewing all facts and making all reasonable inferences in the light most favorable to the nonmoving
party.” Cent. Platte Nat. Res. Dist. v. U.S. Dep’t of

8a
Agric., 643 F.3d 1142, 1146 (8th Cir. 2011). With respect to the interpretation of the insurance policy, applying Missouri substantive law, “[w]e review the district court’s interpretation of the [State Farm] policy
de novo.” Westchester Surplus Lines Ins. Co. v. Interstate Underground Warehouse & Storage, Inc., 946
F.3d 1008, 1010 (8th Cir. 2020).
“Under Missouri law, general rules of contract interpretation govern the interpretation of insurance
policies. Policy terms are given the meaning which
would be attached by an ordinary person of average
understanding if purchasing insurance.” Id. (citations
and internal quotations marks omitted). The central
issue in interpreting contract language is determining
whether any ambiguity exists, which occurs “where
there is duplicity, indistinctness, or uncertainty in the
meaning of the words used in the contract.” Peters v.
Emp’rs Mut. Cas. Co., 853 S.W.2d 300, 302 (Mo. 1993)
(en banc). “Where insurance policies are unambiguous, they will be enforced as written absent a statute
or public policy requiring coverage. If the language is
ambiguous, it will be construed against the insurer.”
Id. (citations omitted).
The focus of the dispute between the parties is
whether the phrase “based on,” as used in the COI
provision stating that the “rates for each policy year
are based on the Insured’s age on the policy anniversary, sex, and applicable rate class,” allowed State
Farm to include other non-mortality factors in the calculation of the COI rates. State Farm argues that this
provision allows it to include other factors, while Vogt
asserts that it unambiguously does not. We conclude
that, at the very least, the phrase is ambiguous, and
must be construed in favor of Vogt.

9a
The policy contains no definition for the phrase
“based on,” so we rely on the plain and ordinary meaning of the phrase. See CitiMortgage, Inc. v. Equity
Bank, N.A., No. 4:15-CV-230-SPM, 2017 WL 5564532,
at *3 (E.D. Mo. Nov. 20, 2017) (noting that policy did
not define term and thus following general Missouri
contract interpretation principle that “[t]he parties’
intent is presumed to be expressed by the plain and
ordinary meaning of the language of the contract”
(quoting Chochorowski v. Home Depot U.S.A., 404
S.W.3d 220, 226 (Mo. 2013))). Looking at the language of the provision alone, we conclude that the
phrase “based on” is at least ambiguous because a person of ordinary intelligence purchasing an insurance
policy would not read the provision and understand
that where the policy states that the COI fees will be
calculated “based on” listed mortality factors that the
insurer would also be free to incorporate other, unlisted factors into this calculation.
State Farm asserts that in examining this phrase,
we should rely on Norem v. Lincoln Benefit Life Co.,
737 F.3d 1145 (7th Cir. 2013), which held that the
phrase “based on” in a life insurance contract did not
imply exclusivity of factors. Specifically, the court explained that “neither the dictionary definitions nor
the common understanding of the phrase ‘based on’
suggest that Lincoln Benefit is prohibited from considering factors beyond sex, issue age, policy year, and
payment class when calculating its COI rates.” Id. at
1150; see also Mai Nhia Thao v. Midland Nat’l Life
Ins. Co., 549 F. App’x 534, 537 (7th Cir. 2013) (“Norem
. . . holds that when the policy says that the monthly
cost of insurance rate will be ‘based on’ specified factors, it does not mean that the rate will be based exclusively on those factors.”). Relying on Norem, State

10a
Farm urges us to conclude that the plain and ordinary
meaning of “based on” does not imply exclusivity. But
Norem acknowledges that other courts have reached
the opposite conclusion. 737 F.3d at 1149 (noting that
“[s]everal state and district courts have considered
similar clauses in life insurance policies and reached
divergent results” and citing same). That several
courts have examined the issue in very similar circumstances and have reached differing conclusions
supports the conclusion that the phrase is ambiguous.
State Farm also cites other cases where the court
considered the meaning of the phrase “based on,” but
as those cases involve the phrase as used in the
United States Sentencing Guidelines, we do not find
them instructive in construing this insurance contract. See Appellant’s Br. 33-34 (citing Koons v.
United States, 138 S. Ct. 1783, 1788 (2018) and
Hughes v. United States, 138 S. Ct. 1765, 1775, 1778
(2018)). Finally, State Farm asserts that, because it
never charged in excess of the maximum rates stated
in the contract for the COI, it cannot have breached
the contract, regardless of the interpretation of the
phrase “based on.” We reject this contention. That
State Farm did not violate the contract in another
manner does nothing to prove that it did not violate
the contract by including impermissible factors in calculating the COI. If State Farm wanted the freedom
to collect a COI fee based on factors other than those
enumerated in the policy, it could have drafted the
policy language to unambiguously achieve this aim.
See Krombach v. Mayflower Ins. Co., 827 S.W.2d 208,
211 (Mo. 1992) (en banc) (“[A]s the drafter of the insurance policy, the insurance company is in the better
position to remove ambiguity from the contract.”).

11a
For the foregoing reasons, we conclude that the
phrase “based on” in the COI provision is at least ambiguous and thus must be construed against State
Farm. The district court did not err in construing the
policy language in this manner and granting summary judgment to Vogt on issues of liability.
III.
State Farm also asserts that the district court
erred by granting Vogt’s oral motion for summary
judgment on State Farm’s statute-of-limitations defense. Again, we review a grant of summary judgment
de novo, “viewing all facts and making all reasonable
inferences in the light most favorable to the nonmoving party.” Cent. Platte, 643 F.3d at 1146. Under
Missouri law, claims for breach of contract, conversion, and declaratory judgment are subject to a fiveyear statute of limitations. Mo. Rev. Stat. § 516.120.
The statute of limitations begins to run “when the
damage resulting [from the wrong] is sustained and is
capable of ascertainment[.]” Mo. Rev. Stat. § 516.100.
This test is an objective one, providing that an injury
is capable of ascertainment when the “evidence was
such to place a reasonably prudent person on notice of
a potentially actionable injury.” Powel v. Chaminade
Coll. Preparatory, Inc., 197 S.W.3d 576, 582 (Mo.
2006) (en banc) (quoting Bus. Men’s Assurance Co. of
Am. v. Graham, 984 S.W.2d 501, 507 (Mo. 1999) (en
banc)).
State Farm contends that the statute of limitations began to run long before Vogt consulted an actuarial expert and an attorney because he was well
aware of the rising COI fees, as evidenced by annual
statements State Farm sent to Vogt, and his
knowledge of rising COI fees put him on notice of potentially actionable overcharges. This contention is

12a
without merit. Although a reasonably prudent person
might have had some suspicions about the rising COI
fees, this alone would be insufficient to put such a person on notice and trigger the running of the statute of
limitations. See Mahanna v. U.S. Bank Nat.’l Ass’n,
747 F.3d 998, 1004 (8th Cir. 2014) (“Notice of a need
to investigate triggers claim accrual but not every potential source of suspicion or insecurity gives rise to a
duty to investigate.”) (applying Missouri law). And as
the enumerated factors in the COI provision are mortality factors, it could have reasonably been assumed
that the rising COI fees were related to Vogt’s increasing age and less favorable mortality outlook, rather
than State Farm’s inclusion of additional factors in
the COI fees. Although, with the help of an attorney
and an actuarial expert, Vogt was ultimately able to
determine that the COI fees included non-enumerated
factors, there is no evidence in the record that would
have “place[d] a reasonably prudent person on notice
of a potentially actionable injury” simply based on the
rising COI fees and annual statements. Powel, 197
S.W.3d at 582 (quoting Bus. Men’s Assurance, 984
S.W.2d at 507). The district court did not err in granting summary judgment to Vogt on State Farm’s affirmative defense of limitations.
IV.
State Farm next asserts that the district court
erred in certifying this suit as a class action, arguing
that (1) numerous members of the class did not have
standing due to a lack of damages caused by the COI
overcharges; (2) intra-class conflicts existed; and (3)
the district court impermissibly certified a fail-safe
class. “We accord the district court broad discretion
to decide whether certification is appropriate, and we
will reverse only for abuse that of discretion.” Day v.

13a
Celadon Trucking Servs., Inc., 827 F.3d 817, 830 (8th
Cir. 2016) (internal quotation marks omitted). “Moreover, a defendant bears a more onerous burden in
challenging certification where . . . the initial certification decision was carefully considered and made after certification-related discovery.” Id. at 832.
A.
As a threshold matter, Vogt argues that this Court
lacks jurisdiction to review the class certification orders because State Farm did not specifically identify
these orders in the Notice of Appeal, instead stating
only that it was seeking to appeal “all previous rulings
and orders that led up to and served as a predicate for
that final judgment.” “When determining whether an
appeal from a particular district court action is
properly taken, we construe the notice of appeal liberally and permit review where the intent of the appeal
is obvious and the adverse party incurs no prejudice.”
Parkhill v. Minn. Mut. Life Ins. Co., 286 F.3d 1051,
1058 (8th Cir. 2002). “Ordinarily, a notice of appeal
that specifies the final judgment in a case should be
understood to bring up for review all of the previous
rulings and orders that led up to and served as a predicate for that final judgment.” Greer v. St. Louis Reg’l
Med. Ctr., 258 F.3d 843, 846 (8th Cir. 2001). Vogt argues that the class certification orders did not serve
as a predicate to the final judgment on the merits. We
disagree. “[T]he class determination involved consideration of factors intertwined with the merits of the
action,” which we find sufficient to bring the district
court’s orders within those appealed by State Farm as
part of the rulings and orders that “served as a predicate for final judgment.” United States v. Bilsky, 664
F.2d 613, 616 (6th Cir. 1981).

14a
B.
State Farm asserts that class certification was inappropriate because the class included members who
did not suffer damages and thus do not have standing.
See Avritt v. Reliastar Life Ins. Co., 615 F.3d 1023,
1034 (8th Cir. 2010) (explaining that “a named plaintiff cannot represent a class of persons who lack the
ability to bring a suit themselves”). State Farm’s argument that some class members lack standing is
premised on the assertion that some class members
received a credit from State Farm during the period in
which the alleged COI overcharges occurred and that
this credit created a set-off that left the class members
without any damages. In other words, even if the
class members were improperly charged excessive
COI fees, the credits they received from State Farm
more than offset any amount of COI overcharges and
left them with no net damages. Without any damages,
State Farm argues, these class members have not suffered an injury and therefore do not have standing.
We find State Farm’s argument unpersuasive,
particularly in light of Stuart v. State Farm Fire and
Casualty Co., 910 F.3d 371 (8th Cir. 2018), where we
rejected a similar argument in a case also involving
State Farm. In Stuart, we affirmed the district court’s
ruling certifying a class of State Farm homeowners’
insurance policyholders, who alleged State Farm improperly withheld certain amounts when making payments under the policy. Id. at 373. State Farm argued that the class certification was improper because
some class members could not demonstrate an injury
because they had ultimately recouped the withheld
payments. We rejected this argument, explaining
that

15a
[a]lthough couched as disputes about standing, State Farm’s arguments really go to the
merits of plaintiffs’ claims. Under plaintiffs’
theory, all individuals who received an improperly-depreciated . . . payment suffered a
legal injury—breach of contract—regardless
of whether the . . . payment was more than,
less than, or exactly the same as the ultimate
cost of repairing or replacing their property.
[A] party to a breached contract has a judicially cognizable interest for standing purposes, regardless of the merits of the breach
alleged.
Id. at 377 (last alteration in original) (internal quotation marks omitted). State Farm’s arguments here
present precisely the same scenario: they challenge
the merits of some class members’ claims, but couch
the argument as one challenging those class members’
standing. For the same reasons we rejected this argument in Stuart, we also reject it here. This is consistent with the general understanding that a failure
on the merits does not affect a class member’s individual standing. 1 Steven S. Gensler & Lumen N. Mulligan, Federal Rules of Civil Procedures, Rules and
Commentary, Rule 23 (2020) (“[If] it turns out that
some members of the class are not entitled to relief,
that represents a failure on the merits, not the lack of
a justiciable claim.”).
Further, as Stuart noted, “[w]hether some plaintiffs are unable to prove damages because they eventually recouped the withheld . . . [payments] is a merits question, and the district court has the power to
amend the class definition at any time before judgment.” 910 F.3d at 377. This is precisely the course
the district court took, amending the class definition

16a
following the jury trial to exclude those class members
who suffered no damages. R. Doc. 404, at 2. The district court did not abuse its discretion in granting
class certification.
C.
State Farm next asserts that intra-class conflicts
should have precluded class certification. Specifically,
State Farm argues that conflicts exist between current and former policyholders, and between those who
have held policies for longer durations and those who
have held policies for shorter durations. Federal Rule
of Civil Procedure 23(a) requires that, for a class action to be certified, the class members share typicality
and adequacy of representation. See also Amchem
Prods., Inc. v. Windsor, 521 U.S. 591, 626 n.20 (1997).
“But perfect symmetry of interest is not required and
not every discrepancy among the interests of class
members renders a putative class action untenable. . . . [T]o forestall class certification the intra-class
conflict must be so substantial as to overbalance the
common interests of the class members as a whole.”
Matamoros v. Starbucks Corp., 699 F.3d 129, 138 (1st
Cir. 2012). State Farm asserts that the purported intra-class conflicts run afoul of these dictates. We disagree.
State Farm argues that a conflict exists between
current and former policyholders, asserting that, if
State Farm employed the COI rates that Vogt’s expert
presented in his damages model, class members
would be charged more, not less, and current policyholders would be subject to higher charges, in conflict
with former policyholders, who, by definition, would
not be subject to increased charges. This purported
conflict is entirely speculative and is insufficient to

17a
render class certification inappropriate because it relies on nothing more than conjecture about how this
lawsuit will affect State Farm’s future dealings with
current policyholders. See Ward v. Dixie Nat’l Life
Ins. Co., 595 F.3d 164, 180 (4th Cir. 2010) (“[A] conflict
will not defeat the adequacy requirement if it is
merely speculative or hypothetical, and in this case,
the conflict rests on the uncertain prediction that this
lawsuit will cause premiums to increase enough to adversely affect some members of the class.” (internal
quotation marks and citation omitted)). What will
happen with current State Farm policyholders in the
future rests on “uncertain predictions” that cannot
serve as a basis to defeat class certification.
As to the purported conflict between policyholders
of different durations, State Farm argues that class
members who held policies for a longer duration were
disadvantaged because Vogt’s damages model attributed smaller mortality charges to those who held
policies for shorter durations. State Farm argues that
the policyholders who held the policy for a longer duration actually benefitted from the COI rates, which
pooled all policyholders, regardless of the duration
they held the policy. First, with respect to the purported conflict based on State Farm’s pooling of mortality rates, as the district court noted in its order
denying State Farm’s motion to decertify the class,
“State Farm’s argument fails because the jury found
that it did not pool its mortality rates.” R. Doc. 402,
at 6. Although time and again throughout this appeal
State Farm reaffirms its reluctance to accept the
jury’s finding on this point, the fact remains that the
jury concluded State Farm did not pool its mortality
rates, and any argument premised on pooling must

18a
fail. Second, even if there are slightly divergent theories that maximize damages for certain members of
the class, “this slight divergence is greatly outweighed
by shared interests in establishing [defendant’s] liability.” DiFelice v. U.S. Airways, Inc., 235 F.R.D. 70,
79 (E.D. Va. 2006); see also 1 Newberg on Class Actions § 3:62 (5th ed. 2019) (“Courts generally reject the
argument that an intra-class conflict exists when divergent theories of liability would benefit different
groups within the class. Courts have thus rejected
challenges to the class representatives’ adequacy that
were based . . . on different class members desiring
different methods of calculating damages[.]”).
Because there are no class conflicts “so substantial as to overbalance the common interests of the
class members as a whole,” the district court did not
err in certifying the class. Matamoros, 699 F.3d at
138.
D.
State Farm next argues that the class conflicts
demonstrate that the district court impermissibly created a fail-safe class. A fail-safe class is one that
“would allow putative class members to seek a remedy
but not be bound by an adverse judgment—either
those class members win or, by virtue of losing, they
are not in the class and are not bound.” Orduno v.
Pietrzak, 932 F.3d 710, 716 (8th Cir. 2019) (internal
quotation marks omitted). State Farm argues that
the district court’s exclusion of 487 class members after the jury concluded they failed to prove damages
demonstrates that the district court created a fail-safe
class. Despite State Farm’s argument and requests
from amici briefs, we need not decide whether the creation of a fail-safe class is permissible because, quite
simply, none is present here. State Farm’s argument

19a
that the district court excluded 487 class members
only after they failed to prove damages is an inaccurate characterization of the record. The district court
excluded these class members prior to trial and none
of their claims were submitted to the jury. The posttrial statement of the district court in its order altering or amending the judgment served as nothing but
clarification on this point.
We are satisfied that the district court defined the
class in such a manner that it excluded those individuals who did not share the claim that State Farm’s
conduct deducted amounts for COI fees that included
non-mortality factors, but included and bound all
those who did share that claim, even if they ultimately
were unsuccessful on that claim. Because all members of the class were bound by the judgment, regardless of whether they succeeded on their individual
claims, the district court did not create a fail-safe
class.
Based on the foregoing, we conclude that the district court did not abuse its discretion in certifying the
class or in denying State Farm’s motion to decertify
the class.
V.
State Farm also argues that the district court’s denial of State Farm’s post-verdict motion for judgment
as a matter of law was erroneous because Vogt’s damages models were insufficient to sustain the jury’s
damages award. “We review de novo a district court’s
denial of a post-verdict motion for judgment as a matter of law, viewing the evidence in the light most favorable to the verdict. Judgment as a matter of law is
only appropriate when no reasonable jury could have
found for the nonmoving party.” S. Wine & Spirits of

20a
Nev. v. Mountain Valley Spring Co., 646 F.3d 526, 533
(8th Cir. 2011) (citation omitted). State Farm asserts
Vogt’s evidence of damages was impermissibly speculative and unreliable in that (1) it did not differentiate
between policyholders who used tobacco products and
those who did not; (2) it lacked evidence demonstrating that State Farm did not pool mortality rates; (3) it
failed to account for several months in which the COI
fee State Farm charged was less than Vogt’s proposed
COI rate that considered only enumerated mortality
factors; and (4) it improperly included policyholders
who received all the benefits to which they were entitled.
Vogt argues that State Farm waived this challenge by failing to raise any objections to Vogt’s expert
1
damages models prior to trial through a Daubert motion or through objections at trial. We agree that because State Farm failed to file a Daubert motion or
object at trial, it has waived any argument regarding
the admissibility of the expert damages models. See,
e.g., Marbled Murrelet v. Babbitt, 83 F.3d 1060, 1066
(9th Cir. 1996) (“Although we recognize that evidence
which is unreliable is necessarily insufficient, the appropriate time to raise Daubert challenges is at trial.
By failing to object to evidence at trial and request a
ruling on such an objection, a party waives the right
to raise admissibility issues on appeal.”).
However, we will consider State Farm’s argument
to the extent it challenges the sufficiency of the evidence.
Damages for breach of contract must be shown
with reasonable certainty, and the plaintiff bears the

1

Daubert v. Merrell Dow Pharm., Inc., 509 U.S. 579 (1993).

21a
burden of providing a rational estimate of the damages “without resorting to speculation, but the specific
amount of damages is committed to the discretion of
the factfinder.” Randy Kinder Excavating, Inc. v. J.A.
Manning Constr. Co., Inc., 899 F.3d 511, 520 (8th Cir.
2018) (internal quotation marks omitted) (applying
Missouri law). In a sufficiency of the evidence challenge, “[i]t is well settled that we will not reverse a
jury’s verdict for insufficient evidence unless, after
viewing the evidence in the light most favorable to the
verdict, we conclude that no reasonable juror could
have returned a verdict for the non-moving party.”
Ryther v. KARE 11, 108 F.3d 832, 836 (8th Cir. 1997).
As to State Farm’s complaint that the damages
models were insufficient because they did not differentiate between tobacco and non-tobacco users, there
was no need for the damages models to take this mortality factor into account as this was not a mortality
factor listed in the policy. If State Farm’s stated mortality factors did not make any differentiation between those who used tobacco products and those who
did not, there is no reason to believe that COI fees
would be different as between tobacco and non-tobacco users. As to State Farm’s argument that the
damages models were insufficient because they operated under the assumption that State Farm did not
pool mortality rates in spite of State Farm’s presentation of undisputed evidence that they did pool mortality factors, this is nothing more than an attempt to
unwind the factual findings of the jury, which concluded that State Farm did not pool its policies when
calculating the COI rates. Because the jury concluded
State Farm did not pool its policies, the damages models that represented this fact were sufficient to support the jury award.

22a
State Farm further argues that the damages models were insufficient to support the verdict because
they failed to account for several months in which the
COI fee State Farm charged was actually less than a
COI fee that considered only the enumerated mortality factors. We find this argument unpersuasive. At
trial, State Farm presented an offset defense, arguing
that State Farm was entitled to an offset for amounts
from months where it charged a COI fee that was less
than what a COI fee based on mortality factors would
have included, and Vogt presented a damages model
that accounted for State Farm’s claimed amount of offsets. As the damages model the jury ultimately selected included State Farm’s offset amounts, we are
unpersuaded by State Farm’s argument. Finally,
with respect to State Farm’s argument that the damages models were insufficient because they improperly included policyholders who received all the benefits to which they were entitled, we are similarly unpersuaded. State Farm specifically argues that, upon
death and payment of death benefits, all benefits owing on account of a policyholder who selected a death
benefit option would be paid: the face amount of the
insurance, not any amount of the policy’s account
value. Thus, State Farm asserts that the policyholder’s beneficiaries no longer have an interest in the
account value. Instead, the policyholders’ beneficiaries are entitled to only the death benefits under the
term of the policy. Without an interest in the account
value, State Farm argues, there can be no claim that
a deceased policyholder’s account value was wrongfully depleted by COI overcharges. However, we see
no reason to limit damages merely because death benefits have been paid for a policyholder; that policyholder still suffered a depleted account value during
his lifetime due to State Farm’s overcharges of COI

23a
fees. Vogt’s damages models, which measure the lost
account value for all policyholders during the period
in which they held the policies, provide the most reasonable basis for measuring the harm that was incurred during the life of the policyholders.
State Farm’s challenges to the sufficiency of the
damages models, as a whole, miscast the evidence presented to the jury and the verdict reached by the jury.
Mindful that we may reverse only where no reasonable juror could have reached a verdict in favor of Vogt,
we reject State Farm’s argument that the damages
models were insufficient to support the jury award.
The district court did not err in denying State Farm’s
motion for judgment as a matter of law based on the
alleged insufficiency of the damages models as evidence of damages suffered by class members.
VI.
State Farm also takes aim at various evidentiary
rulings of the district court, asserting that the district
court (1) incorrectly allowed Vogt to introduce latedisclosed expert materials at trial; (2) erroneously excluded any evidence related to the maximum rates
State Farm was permitted to charge under the terms
of the policy; and (3) erroneously limited the testimony of State Farm’s expert. State Farm further argues the cumulative effect of these rulings amounts to
reversible error. State Farm raised these evidentiary
issues in its motion for new trial, the denial of which
we review for “a ‘clear’ abuse of discretion, with the
key question being whether a new trial is necessary to
prevent a miscarriage of justice.” Hallmark Cards,
Inc. v. Murley, 703 F.3d 456, 462 (8th Cir. 2013). Similarly, we review a district court’s evidentiary rulings
for an abuse of discretion, and will reverse only if the
evidentiary ruling “was a clear and prejudicial abuse

24a
of discretion.” United States v. Mahasin, 362 F.3d
1071, 1084 (8th Cir. 2004). This standard requires “a
showing that those rulings had a substantial influence on the jury’s verdict.” McPheeters v. Black & Veatch Corp., 427 F.3d 1095, 1101 (8th Cir. 2005).
A.
State Farm first argues that the district court erroneously allowed Vogt to present three expert damages models at trial that were not timely disclosed.
Vogt originally provided his expert materials to State
Farm on January 30, 2018, and provided a supplement on February 5, 2018. State Farm does not dispute that these were properly and timely disclosed expert materials. But on May 16, 2018, after the February 15, 2018 deadline for plaintiff’s rebuttal expert reports, Vogt provided State Farm with three damages
models that had not been previously disclosed. State
Farm asserts that these amount to new, untimely disclosed expert opinions that the district court erroneously allowed Vogt to present to the jury. Further,
State Farm asserts that there is clear evidence that
this prejudiced State Farm because the jury’s verdict
rejected the only damages model that had been timely
disclosed, instead adopting a damages model from the
late-disclosed materials. Under Federal Rule of Civil
Procedure 26(a), the “failure to disclose [expert materials] in a timely manner is equivalent to a failure to
disclose.” Wegener v. Johnson, 527 F.3d 687, 692 (8th
Cir. 2008) (quoting Trost v. Trek Bicycle Corp., 162
F.3d 1004, 1008 (8th Cir. 1998)). Where a party fails
to make a timely disclosure, Federal Rule of Civil Procedure 37(c)(1) provides the district court with the authority to exclude the late-disclosed materials or to
fashion a lesser penalty than total exclusion. See also
Petrone v. Werner Enters, Inc., 940 F.3d 425, 435 (8th

25a
Cir. 2019) (“Rule 37(c)(1) addresses what to do if a
party fails to disclose information as required by Rule
26(a) and attempts to use that information on a motion, at a hearing, or at a trial.” (emphasis omitted)).
Before considering whether the damages models
violated Rule 26 and were thus subject to the sanctions of Rule 37, we must first consider whether the
damages models were actually untimely disclosed expert materials or if they were merely summaries of voluminous data that were admissible under Federal
Rule of Evidence 1006. Rule 1006 allows a party to
“use a summary, chart, or calculation to prove the content of voluminous writings, recordings, or photographs that cannot be conveniently examined in
court,” provided that the party seeking to introduce
the summary “make[s] the originals or duplicates
available for examination or copying, or both, by other
parties at a reasonable time and place.” “Summary
evidence is properly admitted when (1) the charts
fairly summarize voluminous trial evidence; (2) they
assist the jury in understanding the testimony already introduced; and (3) the witness who prepared
the charts is subject to cross-examination with all documents used to prepare the summary.” United States
v. Green, 428 F.3d 1131, 1134 (8th Cir. 2005) (internal
quotation marks omitted). Summary evidence also
may “include assumptions and conclusions, but said
assumptions and conclusions must be based upon evidence in the record.” Id. (quoting United States v.
Wainwright, 351 F.3d 816, 821 (8th Cir. 2003)).
In light of the fact that this case involves complicated and voluminous data about the COI fees
charged to numerous policyholders over a significant
period of time, the damages models are best characterized as summaries that Vogt introduced to better

26a
aid the jury in understanding the evidence at trial. As
the district court noted, the additional damages models utilized the same methodology and calculations as
the previously disclosed expert materials, differing
only insofar as they altered assumptions to apply the
theories that State Farm’s expert presented. The differences between the originally disclosed damages
models and the three later-produced damages models
are no more than different “assumptions and conclusions” that are “based upon evidence in the record.”
Id. (quoting Wainwright, 351 F.3d at 821). And the
district court did not allow Vogt to introduce these
models at trial without providing any recourse to
State Farm. The district court allowed State Farm to
conduct a telephonic deposition of Vogt’s expert prior
to trial, and gave State Farm the opportunity to both
submit its own exhibit in response and have its expert
comment on the calculations in the new models.
For the foregoing reasons, we conclude that the
damages models were admissible as summaries of voluminous data, and the district court did not abuse its
discretion by allowing Vogt to introduce these models
to the jury. Because we conclude that these summaries were properly admissible under Rule 1006, we find
Rule 26 inapplicable. The district court thus did not
err in denying the motion for new trial on this basis.
B.
State Farm also asserts that the district court erroneously precluded State Farm from presenting evidence regarding the maximum COI rates under the
policy and that State Farm never exceeded this rate,
which State Farm argues was relevant to whether any
class member sustained any damages from the COI
fees. We see no error in the district court’s exclusion

27a
of this evidence, because it is irrelevant to the determination of whether class members were damaged by
State Farm’s breach of contract in using non-enumerated factors to assess COI fees.
Relevant evidence “has any tendency to make a
fact more or less probable than it would be without the
evidence” and involves a “fact [that] is of consequence
in determining the action.” Fed. R. Evid. 401. Evidence of the maximum COI rates that State Farm was
allowed to charge under the policy fails under both
guideposts. The jury was tasked only with resolving
the issue of damages because the district court determined, via summary judgment, that Vogt had sufficiently demonstrated that State Farm had breached
the contract with its policyholders by collecting COI
fees based on non-enumerated factors. Whether State
Farm charged COI fees below the maximum rate
stated in the policy has nothing to do with the question of whether class members were damaged by State
Farm’s collection of COI fees based on impermissible
factors under the policy. It thus does not make it more
or less likely that class members sustained damages
from the overcharges, and the maximum COI rates
under the policy is not of consequence in determining
damages sustained through COI overcharges. Further, even if this proof had some arguable relevance,
the district court acted within its discretion in excluding this evidence because it would serve no purpose
other than to confuse or mislead the jury into revisiting issues of liability that had already conclusively
been determined. See Fed. R. Evid. 403; Am. Bank of
St. Paul v. TD Bank, N.A., 713 F.3d 455, 467 (8th Cir.
2013) (finding no error where district court excluded
evidence that was irrelevant and would tend to confuse the jury). The district court thus committed no

28a
error in excluding evidence related to State Farm’s
maximum allowable COI rates charged under the policy and in denying the motion for new trial on this basis.
C.
State Farm next argues that the district court erroneously limited the testimony of its expert, preventing the expert from providing testimony about an actuarial memorandum from State Farm’s New Jersey
operations, that State Farm argues was relevant to
whether State Farm pooled its mortality rates. The
district court prohibited State Farm from questioning
its expert on this memorandum because it concluded
that the expert’s opinions in his report did not discuss
the memorandum. However, when Vogt’s counsel
questioned the expert on cross-examination about the
memorandum, the district court allowed it. State
Farm argues that this was in error because it gave the
jury the false impression that it was State Farm, not
Vogt, that did not want any testimony about the actuarial memorandum introduced into evidence. State
Farm asserts that preventing it from eliciting this testimony on direct examination was prejudicial to State
Farm’s case, as a central question for the jury to consider in assessing the question of damages was
whether State Farm pooled its mortality rates.
First, the district court was within its discretion
to exclude this testimony because State Farm’s expert
did not offer any opinion on the New Jersey memorandum in his expert report. See Fed. R. Civ. P.
26(a)(2)(B)(i) (explaining that expert report is required to include “a complete statement of all opinions
the witness will express and the basis and reasons for
them”); Fed R. Civ. P. 37(c)(1) (providing for exclusion
of untimely disclosed expert information). Second,

29a
even if the district court’s ruling were erroneous,
State Farm suffered no prejudice from either the district court’s original decision to exclude the testimony
or the district court’s allowance of questions to this effect on cross examination because, once Vogt’s counsel
opened the door in cross examination of State Farm’s
expert, State Farm could have questioned the expert
about the memorandum on re-direct examination.
State Farm could have both used the memorandum
for probative purposes and cured any potential false
impression about State Farm’s desire to use the information. That State Farm did not avail itself of this
opportunity does not create prejudice requiring reversal. See McPheeters, 427 F.3d at 1101 (providing
standard for finding prejudice for erroneous evidentiary ruling). The district court did not err in limiting
the expert’s testimony, and in denying the motion for
new trial on this basis.
D.
State Farm finally argues that, even if the alleged
errors do not individually warrant reversal, the cumulative effect of the rulings does. But “[w]e will not reverse based upon the cumulative effect of errors unless there is substantial prejudice to the defendant,
and we have declined to apply the doctrine when the
evidentiary rulings are within the trial court’s discretion.” McPheeters, 427 F.3d at 1106 (quoting United
States v. Gladfelter, 168 F.3d 1078, 1083 (8th Cir.
1999)). As we have found that all of the evidentiary
rulings State Farm challenges were within the district
court’s discretion, we find no cumulative error requiring reversal.

30a
VII.
State Farm next challenges the judgment in favor
of Vogt on the conversion claim, arguing both that the
conversion claim fails as a matter of law, and that the
district court erroneously instructed the jury. State
Farm renews arguments it raised in its motion for
new trial, which the district court denied. Again, we
review the denial of a motion for new trial for clear
abuse of discretion. Hallmark Cards, 703 F.3d at 462.
Vogt asserted a conversion claim under Missouri
law, and we review the district court’s interpretation
of state law de novo. St. Paul Fire & Marine Ins. Co.
v. Schrum, 149 F.3d 878, 880 (8th Cir. 1998). State
Farm presents two arguments as to why Vogt’s conversion claim fails under Missouri law, each equally
unavailing. First, State Farm argues that money cannot be the subject of a conversion claim, and therefore
the money involved in COI overcharges cannot have
been converted. But State Farm ignores that Missouri law recognizes an exception to the general rule
that money cannot be converted: “[C]onversion does
not ordinarily lie for money represented by a general
debt. However, the rule is otherwise as to funds
placed in the custody of another for a specific purpose
and their diversion for other than such specified purpose subjects the holder to liability in conversion.”
Dillard v. Payne, 615 S.W.2d 53, 55 (Mo. 1981) (citations omitted). Here, policyholders submitted payments to State Farm with the intention that State
Farm add those amounts to their account values.
They did not authorize State Farm to deduct amounts
from their accounts for COI fees based on factors other
than those listed in the policy. Thus, State Farm’s unauthorized deductions fall within the exception recognized under Missouri law.

31a
Second, State Farm asserts that the conversion
claim is barred by the economic loss doctrine, which
Missouri law recognizes “bars recovery of purely pecuniary losses in tort where the injury results from a
breach of a contractual duty.” Dubinsky v. Mermart,
LLC, 595 F.3d 812, 819 (8th Cir. 2010) (internal quotation marks omitted) (applying Missouri law). However, State Farm again ignores Missouri law that expressly limits this doctrine to warranty and negligence or strict liability claims. See, e.g., Renaissance
Leasing, LLC v. Vermeer Mfg. Co., 322 S.W.3d 112,
130-31 (Mo. 2010) (en banc) (“Under Missouri law,
remedies for economic loss sustained by reason of
damage to or defects in products sold are limited to
those under the warranty provisions of the UCC.”);
Sharp Bros. Contracting Co. v. Am. Hoist & Derrick
Co., 703 S.W.2d 901, 903 (Mo. banc 1986) (explaining
that the economic loss doctrine precludes “recovery on
a theory of strict liability in tort, as a matter of policy,
where the only damage is to the product sold”). As the
district court correctly noted in rejecting this argument, “Missouri courts have never extended the economic loss doctrine beyond the doctrine’s traditional
moorings as policing the boundaries between warranty and negligence[.]” R. Doc. 71, at 6. The district
court thus did not err in its interpretation of Missouri
law, and did not abuse its discretion in denying the
motion for new trial on this basis.
As to State Farm’s claim that the jury instructions
erroneously stated the elements of conversion, “[w]e
review a district court’s formulation of jury instructions for an abuse of discretion and its interpretation
of law de novo.” United States v. Spotted Horse, 916
F.3d 686, 691 (8th Cir.) (quoting United States v.
Farah,899 F.3d 608, 614 (8th Cir. 2018)), cert. denied,

32a
140 S. Ct. 196 (2019). “We afford the district court
broad discretion in choosing the form and language of
the instructions, and our review is limited to a determination of whether the instructions, taken as a
whole and viewed in the light of the evidence and applicable law, fairly and accurately submitted the issues to the jury.” Slidell, Inc. v. Millennium Inorganic
Chems., Inc., 460 F.3d 1047, 1054 (8th Cir. 2006).
The district court gave the following instruction to
the jury:
Your verdict must be for Plaintiffs on their
claim for conversion if you believe:
First, each Plaintiff was the owner of the Account Value.
Second, State Farm took non-mortality factors into account when making deductions
from the Account Value for the monthly Cost
of Insurance rates.
Third, one or more of the Plaintiffs was
thereby damaged.
Fourth, as a result, State Farm deprived any
Plaintiff who was damaged of possession of
the portion of the funds in the Account Value
attributable to non-mortality factors.
It has previously been determined that the
first, second, and fourth elements are established as a matter of law. You must treat
those elements as having been proved. Therefore, your verdict must be for Plaintiffs on
their claim for conversion if you believe that
one or more Plaintiffs suffered damages as a
result of State Farm’s use of non-mortality

33a
factors to set the monthly Cost of Insurance
rates that Plaintiffs paid.
R. Doc. 356, at 20. State Farm argues that this instruction was an erroneous statement of the law because it absolved class members of the obligation to
show a specific corpus from which funds were diverted, and instead allowed Vogt to prevail by proving
only damages, which is not an element of conversion.
See IOS Capital, LLC v. Allied Home Mortg. Capital
Corp., 150 S.W.3d 148, 153 (Mo. Ct. App. 2004) (“The
elements of a cause of action for conversion are: (1) the
plaintiff was the owner of the property or entitled to
possession of the property, (2) the defendant took possession of the property with the intent to exercise
some control over it, and (3) the defendant thereby deprived the plaintiff of the right to possession of the
property.”). We are unpersuaded by this argument.
The district court’s inclusion of the word “damages” in
the instruction did not replace the requirement of a
specific, identifiable corpus with a mere showing of
damages. Instead, the district court’s inclusion of the
phrase “damages” served to convey that a plaintiff
must show the specific funds that were converted from
his account in order to prevail on this claim. And, in
granting in part Vogt’s motion for summary judgment
on the breach of contract claim, the district court determined that, as a matter of law, each plaintiff was
entitled to possession of money deducted from the account value based on non-mortality factors; to the extent State Farm appropriated these funds, it was
wrongful; and State Farm deprived each plaintiff of
the right to possess the full account value. Thus, the
district court’s formulation of the conversion instruction served to isolate the remaining questions for the
jury: whether State Farm had deducted amounts for

34a
COI fees that were based on non-enumerated factors,
and if so, in what amount. This instruction is consistent with the elements of conversion under Missouri law. Because the district court properly instructed the jury on the conversion claim, it did not
err in denying State Farm’s motion for new trial.
VIII.
On cross-appeal, Vogt asserts that the district
court erred by denying prejudgment interest, arguing
that a Missouri statute mandates prejudgment interest on liquidated claims for breach of contract, which
is the type of claim the class pursued, and that the
same statute applies to conversion claims. Vogt contends that the district court erroneously determined
that the policy precluded the award of prejudgment
interest at the statutory rate, and, at the very least,
should have awarded prejudgment interest by utilizing the 4% rate included in the policy. “Whether the
district court had authority to grant prejudgment interest is a question of state law which we review de
novo.” Transit Cas. Co. v. Selective Ins. Co. of Se., 137
F.3d 540, 546 (8th Cir. 1998). “In a diversity case, the
question of prejudgment interest is a substantive one,
controlled by state law[,]” here, Missouri law. Emmenegger v. Bull Moose Tube Co., 324 F.3d 616, 624
(8th Cir. 2003).
Under Mo. Rev. Stat. § 408.020,
Creditors shall be allowed to receive interest
at the rate of nine percent per annum, when
no other rate is agreed upon, for all moneys
after they become due and payable, on written
contracts, and on accounts after they become
due and demand of payment is made; for
money recovered for the use of another, and

35a
retained without the owner’s knowledge of the
receipt, and for all other money due or to become due for the forbearance of payment
whereof an express promise to pay interest
has been made.
“Where an agreement is reached by the parties regarding the interest rate, even if the agreement is that
no interest will be paid or established the interest rate
to be zero percent, it will be enforced.” G&G Mech.
Constructors, Inc. v. Jeff City Indus., Inc., 549 S.W.3d
492, 496 (Mo. Ct. App. 2018). Section 408.020 also applies to conversion claims. Stromberg v. Moore, 170
S.W.3d 26, 32 (Mo. Ct. App. 2005).
The district court determined that the inclusion of
an interest rate of 4% in the policy precluded an award
of prejudgment interest at the statutory rate because
the 4% represented the “other rate . . . agreed upon”
in Mo. Rev. Stat. § 408.020. Specifically, the policy
contains an “Interest” provision, which states:
An interest rate of at least 4% a year will be
applied to the account value. The rate applied
to the amount of account value up to the
amount of any loan may differ from the rate
applied to the account value in excess of the
amount of any loan. We will determine these
rates at least once a year.
R. Doc. 167-2, at 11. Although this provision does not
speak directly to prejudgment interest, we are satisfied that the parties agreed, by the terms of the contract, that the interest rate to be applied to all policyholder funds held by State Farm was to be 4%. See
Manfield v. Auditorium Bar & Grill, Inc., 965 S.W.2d
262, 270 (Mo. Ct. App. 1998) (“If the legislature had
intended for the statutory interest rate to apply

36a
where, as here, there is an agreement as to the rate of
interest to be charged, but no separate and specific
agreement as to whether the same rate is to be
charged after maturity or default, it could have simply
said so. It did not.”). In the face of this express agreement, a higher rate of interest is precluded.
Although we conclude the district court correctly
denied Vogt’s request for prejudgment interest at the
statutory rate, Vogt is entitled to prejudgment interest at the 4% rate contained in the contract. State
Farm asserts that Vogt has already been awarded this
amount, because it was included in the damages
model the jury ultimately selected at trial. Vogt counters that while the damages model included the contract rate on each class member’s account value
through the date each policy was surrendered or terminated, it does not include any prejudgment interest
amount for the time following surrender or termination. We agree with Vogt that the policy holders are
entitled to prejudgment interest at the contractual
rate of 4% up until the date of judgment, not merely
up until the date of termination or surrender. We further agree with Vogt that the damages model does not
include the 4% interest rate beyond the date of termination or surrender of a given policy. Because the
damages model does not include prejudgment interest
for the entire time up until judgment, the district
court erroneously denied Vogt’s motion for an award
of prejudgment interest. Accordingly, we reverse and
remand to the district court for reconsideration of the
motion, consistent with this analysis.
IX.
For the foregoing reasons, we affirm in part and
reverse and remand in part. Vogt’s motion to file a
supplemental appendix is denied.

37a

APPENDIX B
IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF MISSOURI
CENTRAL DIVISION
________________________________
No. 2:16-cv-04170-NKL
________________________________
MICHAEL VOGT, on behalf of himself and all others
similarly situated,
Plaintiff,
v.
STATE FARM LIFE INSURANCE COMPANY,
Defendant.
________________________________
ORDER
Plaintiff Michael Vogt moves for an order certifying a class of “[a]ll persons who own or owned a universal life insurance policy issued by State Farm on
1
Form 94030 in the State of Missouri.” Doc. 145. For
the reasons discussed below, the Court grants Plaintiff’s motion.

1

Excluded from the Class are: State Farm; any entity in which
State Farm has a controlling interest; any of the officers, directors, or employees of State Farm; the legal representatives, heirs,
successors, and assigns of State Farm; anyone employed with
Plaintiff’s counsel’s firms; and any Judge to whom this case is
assigned, and his or her immediate family (collectively, the “Excluded Persons”).

38a
I.

BACKGROUND

In 1999, Vogt purchased policy form 94030 (the
“Policy”), a flexible premium adjustable whole life insurance policy, from State Farm. The Policy was a
universal life insurance policy, a type of “permanent”
life insurance that, unlike standard term insurance,
is supposed to provide lifetime death benefit protection. Policy owners paid premiums that were deposited into their “Account Value,” which accumulated interest at or above a minimum rate that the Policy
guarantees.
Each month, State Farm was permitted to make a
deduction from the Policy that included “(1) the cost of
insurance, (2) the monthly charges for any riders, and
(3) the monthly expense charge.” The Policy remained
in force so long as there was sufficient money in the
Account Value to cover these monthly deductions.
The cost of insurance (“COI”) charge was calculated using a monthly cost of insurance rate. The Policy provides that COI rates “for each policy year are
based on the Insured’s age on the policy anniversary,
sex, and applicable rate class,” and “can be adjusted
for projected changes in mortality.” Doc. 145-1, at 10.
These factors are commonly used to determine mortality expectations for an insured or group of insureds.
However, Plaintiff contends that State Farm in fact
uses other, unauthorized factors, having nothing to do
with mortality expectations, in determining the Policy’s COI rates, and that State Farm thereby deducts
COI charges from Account Values in amounts exceeding those authorized by the Policy. _________________
_________________________________________________
_________________________________________________
Doc. 150-3, at 3; Doc. 150-4, at 5.

39a
The Policy sets the monthly expense charge at
$5.00. However, Vogt contends that, by including unauthorized expenses in the Policy’s COI rates, State
Farm deducts more than $5.00 in expense charges,
breaching the expense charge provision.
State Farm does not deny that it did not disclose
to policy owners the assumptions underlying the current COI rates. Doc. 199 (Defendant’s Reply in Support of Its Motion For Summary Judgment Motion,
State Farm’s Response to Plaintiff’s Statement of Additional Facts), at XII, ¶ 27, and at XXII, ¶¶ 43-44.
There is no dispute that a policyholder without
knowledge, experience, or training likely would not be
able to understand, without assistance, how State
Farm determined whether to set COI rates below the
maximum rates identified in the Policy, and how
much such rates should be. Id., at XXIII, ¶ 45.
The Policy is a fully integrated contract, and its
language is materially the same for all members of the
putative class. Doc. 145-1, at 11. Neither State
Farm’s nor the Policy-holder’s obligations can be obviated by informal consent or waiver because “[o]nly an
officer has the right to change th[e] [P]olicy,” and “[n]o
agent has the authority to change the [P]olicy or to
waive any of its terms.” Id. The allegedly unauthorized charges result from the uniform application of the
Policy’s terms. All policy owners are subject to the
same set of COI rates, and all COI rates are calculated
using the same undisclosed factors. Id.
Vogt brings four claims: two claims for breach of
contract, specifically with regard to the COI charges
(Count I) and the expense charges (Count II), a claim
for conversion with respect to the Account Value
(Count III), and a claim for declaratory relief relating

40a
to the alleged breaches of the Policy provisions concerning COI and expense charges (Count IV). The
class Vogt seeks to certify consists, with the exception
of the Excluded Persons, of “[a]ll persons who own or
owned a universal life insurance policy issued by
State Farm on Form 94030 in the State of Missouri.”
The Court previously denied State Farm’s motion
for summary judgment. Doc. 218.
II.

DISCUSSION

Under Federal Rule of Civil Procedure 23, a motion for class certification involves a two-part analysis. First, under Rule 23(a), the proposed class must
satisfy the requirements of “numerosity, commonality, typicality, and fair and adequate representation.”
Luiken v. Domino’s Pizza, LLC, 705 F.3d 370, 372 (8th
Cir. 2013). Second, the proposed class must meet at
least one of the three requirements of Rule 23(b).
Comcast Corp. v. Behrend, 133 S. Ct. 1426, 1432
(2013).
The burden of showing that the class should be
certified is on Vogt. See Luiken, 705 F.3d at 372. Vogt
will meet this burden only if, “after a rigorous analysis,” the Court is convinced that the Rule 23 requirements are satisfied. Comcast, 133 S. Ct. at 1432 (quotation marks and citation omitted). The Court has
broad discretion in deciding whether class certification is appropriate.
Prof’l Firefighters Ass’n of
Omaha, Local 385 v. Zalewski, 678 F.3d 640, 645 (8th
Cir. 2012) (citation omitted).

41a
A. Rule 23(a)
1. Numerosity
Rule 23(a)(1) requires that a class be sufficiently
numerous to render joinder of all members impracticable. In assessing whether the numerosity requirement has been met, courts examine factors such as the
number of persons in the proposed class, the nature of
the action, the size of the individual claims, and the
inconvenience of trying individual claims. Paxton v.
Union Nat’l Bank, 688 F.2d 552, 561 (8th Cir. 1982).
State Farm does not contest that this requirement is
satisfied.
_____________________________________________
_________________________________________________
____ See Doc. 150-6, at 48-49 and 66-67. Thus, the
proposed class members are sufficiently numerous.
2. Commonality
Rule 23(a)(2) requires that there be “questions of
law or fact common to the class.” Fed. R. Civ. P.
23(a)(2). A plaintiff must show that the claims “depend upon a common contention” that “is capable of
class wide resolution,” such that “determination of its
truth or falsity will resolve an issue that is central to
the validity of each one of the claims in one stroke.”
Wal-Mart Stores, Inc. v. Dukes, 564 U.S. 338, 350, 131
S. Ct. 2541 (2011). Commonality “‘does not require
that every question of law or fact be common to every
member of the class . . . and may be satisfied, for example, where the question of law linking the class
members is substantially related to the resolution of
the litigation even though the individuals are not
identically situated.’” Downing v. Goldman Phipps
PLLC, No. 13-206 CDP, 2015 WL 4255342, at *4 (E.D.
Mo. July 14, 2015) (quoting Paxton, 688 F.2d at 561).

42a
Commonality is easily satisfied in most cases. See
Wineland v. Casey’s General Stores, Inc., 267 F.R.D.
669, 674 (S.D. Iowa 2009) (“The burden imposed by
[the commonality] requirement is light and easily met
in most cases.”) (citing In re Hartford Sales Practices
Litig., 192 F.R.D. 592, 603 (D. Minn. 1999), and Newberg on Class Actions § 3:10 (4th ed.)).
Plaintiff’s claims in this action—for breach of the
COI provision, for breach of the expense charge provision, for conversion, and for a declaratory judgment—
all turn on interpretation of the Policy, which is a
standard form contract to which each putative class
member was a party. The claims also turn on State
Farm’s determination of COI rates, which was uniform. Doc. 150-2, at ¶¶ 7(c), 7(e), 29-30, 33, 37; Doc.
150-1, at 166:7-22, 171:21-172:11. Thus, the following
questions are common to each putative class member:


Is State Farm limited to using only those
factors disclosed in the Policy when determining COI rates?



Did State Farm use only the factors disclosed in the Policy when determining
COI rates?



Does loading expenses into COI rates violate the Policy’s cap of $5.00 per month
on expense charges?



Did State Farm convert the property of
Policy owners by deducting COI charges
in excess of those amounts authorized by
the Policy?

43a


Is the class entitled to damages as a rem2
edy for State Farm’s breaches?

State Farm nonetheless suggests that these questions would not result in a common answer because,
even if Plaintiff’s assertions are correct, several class
members were not injured. First, plaintiff now
acknowledges that _____ class members were uninjured. Second, when Plaintiff’s expert’s methodology
is combined with the pooled mortality rate that State
Farm purportedly employed, more than _____ members of the class, including Vogt himself, are shown to
have been unharmed by State Farm’s conduct. Third,
State Farm argues, certain deceased policyholders
were not harmed by any purported COI overcharges
in the Account Value.
a. Policyholders Who Were Not Injured
Plaintiff acknowledges that, according to his expert, 487 of the holders of the Policy (“roughly 2% of
the proposed class”) were not injured by the COI rates
that State Farm charged. Doc. 212, at 6. Plaintiffs
argue that this is “no impediment to certification because these ____ policyholders can be identified and
specifically removed from the class.” Id. at 7. State
Farm does not deny that the ____ policyholders may
be identified and excluded from the class. See Doc.
217, at 5.
2

See Tyson Foods, Inc. v. Bouaphakeo, 136 S. Ct. 1036, 1045
(2016) (“When ‘one or more of the central issues in the action are
common to the class and can be said to predominate, the action
may be considered proper under Rule 23(b)(3) even though other
important matters will have to be tried separately, such as damages or some affirmative defenses peculiar to some individual
class members.’”).

44a
In any event, the fact that potential class members undisputedly were uninjured by the conduct at
issue does not prevent class certification. See Tyson,
136 S. Ct. at 1050 (finding that “the question of
whether uninjured class members may recover” was
not “yet fairly presented . . . because the damages
award ha[d] not yet been disbursed” and the record
did not “indicate how it will be disbursed”). Insofar as
there is no dispute that a discrete group of class members were not injured by the alleged conduct at issue
in this action, they may be excluded from the class.
b. Mortality Rates: Pooled or Based
on Policy Age?
State Farm next argues that application of its purportedly pooled mortality rate, along with Plaintiff’s
expert’s methodology for calculating COI rates on the
basis of mortality only, would establish that some ____
of the more than _____ members of the class, including
Vogt himself, were uninjured, and therefore the class
should not be certified.
The mortality risk of people in the same age, sex,
and rating class may not be identical because policy
age can change an individual policyholder’s mortality
risk. The longer it has been since a Policy was issued,
the greater the individual’s mortality risk. This is because one who bought a Policy long ago is more likely
to have developed health problems since the underwriting department approved him as a policyholder.
State Farm’s mortality tables reflect the difference in
the mortality risk of holders of the Policy of the same
age, sex, and rating class. The tables show, for example, that State Farm calculates “six different mortality rates . . . for 35-year-old men of the same rating
class depending on the years elapsed since the Policy
was issued.” Doc. 173, at p. 3.

45a
State Farm insists that, despite using mortality
tables showing six different mortality rates for policyholders of the same age, sex, and rating class,
_________________________________________________
___ Id. _______ See Doc. 217, at 6 (citing Doc. 150.4 at
21).
Vogt argues that ______________________________
_________________________________________________
_________________________________________________
_________________________________ Doc. 194, at 6
(citing Doc. 150-2 at Ex. B.7, at 5 and at Attachment
1). Accordingly, Vogt’s damages calculation methodology does not use a pooled mortality rate, but instead
uses six different mortality rates for people of the
same age, sex, and rating class, depending on policy
length.
The question of whether State Farm used a pooled
mortality rate or multiple mortality rates for the same
age, sex, and rating class to account for policy duration will have a common answer for all of the members
of the proposed class. Although the inputs in the calculation used to determine damages (if State Farm is
found liable) may change depending on whether the
mortality assumptions used are pooled or not, the actual methodology for calculating damages will not
change, regardless of how the issue is decided. If, as
State Farm argues, the COI rate was properly calculated using a pooled mortality rate, then any class
members who are found not to have been injured by
State Farm’s conduct can be identified and excluded
3
from any damages award. Thus, this question does
not warrant denial of class certification.
3

State Farm’s argument that Vogt’s methodology does not correspond to the theory set forth in his complaint misses the mark.

46a
c. Deceased Policyholders
State Farm also contends that deceased policyholders who elected for “Option 1,” in which the Account Value is superseded by the death benefit, were
not harmed by any purported COI overcharges in the
Account Value because they did not receive the Account Value. Plaintiff argues, however, that, in order
to prevent a policy from lapsing, holders were required to keep their Account Value sufficient to cover
the monthly deduction, including the COI charge.
Therefore, they may have had to pay premiums into
the Policy to set off deductions. See Doc. 145-1, at 9
(“If, on any deduction date, the cash surrender value
is not enough to cover the monthly deduction, the policy will stay in force until the end of the grace period.
. . . A premium large enough to cover the monthly deductions for the grace period and any increase in the
surrender charges must be paid before the end of the
grace period; otherwise, this policy will lapse and terminate without value.”). As such, the smaller the COI
charge, the smaller the premiums required to prevent
a lapse. Thus, even if a death benefit ultimately was

Whether a pooled mortality assumption or multiple mortality assumptions are used for insureds of the same age, sex, and rating
class, Plaintiff’s methodology for calculating damages will remain the same—only the inputs will change. Thus, Plaintiff’s
methodology is not inconsistent with the Complaint.
Furthermore, as explained in the Court’s order on State Farm’s
motion for summary judgment, “by referencing both the ‘policy
year’ and the ‘policy anniversary’ in describing the monthly COI
rates, the Policy incorporates the duration . . . as a factor affecting those rates.” Doc. 218, at 12. Questions concerning policy duration therefore are fairly within the scope of this litigation concerning whether State Farm used appropriate factors to determine COI rates.

47a
paid on a policy, the holder might well have been injured by unauthorized deductions from her Account
Value. In short, even deceased policyholders may
have been injured by potentially unauthorized deductions from the Account Value.
3. Typicality
The typicality requirement is met when the claims
or defenses of the representative party are typical of
those of the class. Fed. R. Civ. P. 23(a)(3). The requirement “is fairly easily met so long as other class
members have claims similar to the named plaintiff.”
DeBoer v. Mellon Mortg. Co., 64 F.3d 1171, 1174 (8th
Cir. 1995). In determining typicality, courts consider
whether the named plaintiff’s claim “arises from the
same event or course of conduct as the class claims,
and gives rise to the same legal or remedial theory.”
Alpern v. UtiliCorp United, Inc., 84 F.3d 1525, 1540
(8th Cir. 1996).
Vogt’s claims and the claims of the putative class
members all arise from and relate to the interpretation and application of the Policy. Both the contractual language and State Farm’s methodology for determining the COI rates were uniform for all class
members. The requirement of typicality thus is satisfied.
4. Adequacy
Rule 23(a)(4) requires that the class representative and class counsel will “fairly and adequately protect the interests of the class.” The adequacy requirement is met where: “1) the representatives and their
attorneys are able and willing to prosecute the action
competently and vigorously; and 2) each representative’s interests are sufficiently similar to those of the
class that it is unlikely that their goals and viewpoints

48a
will diverge.” Carpe v. Aquila, Inc., 224 F.R.D. 454,
458 (W.D. Mo. 2004) (internal quotes omitted). The
requirement of adequacy “serves to uncover conflicts
of interest between named parties and the class they
seek to represent.” Amchem Prods., Inc. v. Windsor,
521 U.S. 591, 625 (1997).
As a preliminary matter, as discussed above, the
Policy terms and the methodology used to determine
the COI rates that were charged were the same for
every class member, so Vogt’s interests are substantively identical to those of the other class members.
See Wal-Mart, 564 U.S. at 349, n. 5 (noting that the
two requirements of typicality and adequacy “tend to
merge”). Moreover, Vogt estimates that he was overcharged by $3,182.62. His interest in the outcome of
the case thus is sufficiently strong to ensure vigorous
representation. He has participated in discovery, including by appearing for a deposition.
Furthermore, Vogt’s attorneys in this litigation
have extensive experience prosecuting class actions
and cost-of-insurance cases and will vigorously represent the plaintiffs in this action. State Farm does not
deny that Plaintiff’s counsel is qualified to represent
the class in this action.
State Farm argues that there is a conflict between
Vogt and other members of the class because, while
Vogt benefits from not using a pooled mortality rate,
other members of the class may be disadvantaged by
the use of a policy-duration-specific mortality rate.
But whether State Farm used a pooled mortality rate
is a matter in dispute. Plaintiff’s position is that State
Farm used the same mortality rates in formulating
COI rates that Plaintiff’s expert used, so using the
Plaintiff’s calculation, there is no conflict.

49a
The issue is intertwined with the merits, and is
not appropriately resolved upon a motion for class certification. It does not bar class certification.
The Court finds that the adequacy requirement is
satisfied.
B. Rule 23(b)(3)
Vogt argues that the proposed class should be satisfied pursuant to Rule 23(b)(3), which requires that
“questions of law or fact common to class members
predominate over any questions affecting only individual members, and [that] a class action is superior
to other available methods for fairly and efficiently adjudicating the controversy.”
1. Predominance
“The Rule 23(b)(3) predominance inquiry tests
whether proposed classes are sufficiently cohesive to
warrant adjudication by representation.” Amchem,
521 U.S. at 623. In other words, it “goes to the efficiency of a class action as an alternative to individual
suits.” Ebert v. Gen. Mills, Inc., 823 F.3d 472, 479 (8th
Cir. 2016). The requirement is not satisfied if “individual questions . . . overwhelm the questions common
to the class.” Amgen Inc. v. Conn. Ret. Plans & Trust
Funds, 133 S. Ct. 1184, 1196 (2013). The Eighth Circuit articulates the test as follows:
When determining whether common questions predominate, a court must conduct a
limited preliminary inquiry, looking behind
the pleadings, but that inquiry should be limited to determining whether, if the plaintiff’s
general allegations are true, common evidence
could suffice to make out a prima facie case for

50a
the class. While limited in scope, this analysis
should also be rigorous.
Luiken, LLC, 705 F.3d at 377 (internal quotation and
citation omitted). This inquiry is “far more demanding” than that conducted to establish commonality under Rule 23(a). Amchem, 521 U.S. at 623-24.
The major portion of the evidence on the claims
for breach of contract, conversion, and declaratory
judgment is capable of consideration on a class wide
basis. The terms of the Policy are the same for all
class members. State Farm has not suggested that
the determination of COI rates varied on a case-bycase basis. Thus, common questions predominate.
See Lafollette v. Liberty Mut. Fire Ins. Co., No. 1404147-NKL, 2016 WL 4083478, at *12 (W.D. Mo. Aug.
1, 2016) (“[W]here standardized corporate policies
constitute the very heart of the plaintiffs’ claims, common issues will predominate because those policies
would necessarily have to be reproven by every plaintiff.”) (citation and quotation marks omitted)
State Farm nonetheless contends that the statute
of limitations defense requires individualized determinations that make class certification impractical.
According to State Farm, the Court should not assume
that in the 22 years between when State Farm first
issued the Policy and when Vogt filed this action, none
of the class members became aware of the fact that
COI rates were based on factors other than those specified in the Policy. But State Farm has “admit[ted]
that the assumptions underlying the ‘rates lower than
those shown’ [in the maximum COI table] are not disclosed to policyholders,” and also has “[a]dmit[ted]
that if policyholders without knowledge, experience or
training wanted to understand how State Farm determined whether to set cost of insurance rates below the

51a
maximum rates identified in the Policy, and, if so, how
much lower than the maximum rates, such policyholders would likely require assistance.” Doc. 199, at
XXII-XXIII. Given these admissions, and the fact that
State Farm has presented no evidence to suggest that
the claims of any class member is time-barred, there
is nothing to indicate that individual statute-of-limitations issues would predominate so as to make class
certification impractical or inappropriate. See Barfield v. Sho-Me Power Elec. Co-op., No. 11-CV-04321NKL, 2013 WL 3872181, at **11–12 (W.D. Mo. July
25, 2013) (rejecting defendants’ argument that statute
of limitations defense defeats predominance where defendants presented no evidence that plaintiffs had notice of the allegedly improper conduct), aff’d in relevant part, 852 F.3d 795 (8th Cir. 2017); Schramm v.
JPMorgan Chase Bank, N.A., 09–09442, 2011 WL
5034663, at *12 (C.D. Cal. Oct. 19, 2011) (holding that
“speculation that some class members’ claims may be
[time-]barred on the basis of actual knowledge is not
sufficient to defeat certification”).
2. Superiority of a Class Action
The final requirement of Rule 23(b)(3) is that the
class action form be superior to other methods of adjudication, an analysis that “encompasses the whole
range of practical problems that may render the class
action format inappropriate for a particular suit.” Eisen v. Carlisle & Jacquelin, 417 U.S. 156, 164 (1974).
In determining whether superiority is met, a court
considers:
(A) the class members’ interest in individually controlling the prosecution
of separate actions;

52a
(B) the extent and nature of any litigation concerning this controversy already commenced by potential class
members;
(C) the desirability of concentrating the
litigation of the claims in this forum;
and
(D) the difficulties likely to be encountered in managing a class action.
Rule 23(b)(3).
Vogt is the only class member to have come forward seeking to act as lead plaintiff in this class action. The costs of prosecuting each class member’s
claims individually would likely exceed each member’s damages. See Doc. 150-2, ¶ 27. There is no evidence before the Court that there is any other case
concerning the claims at issue here. The class members are persons in the State of Missouri. This division is centrally located in the state. State Farm does
not suggest that the management of this case as a
class action would present any significant or unusual
difficulties.
Over ______ insureds would have to bring claims
individually if a class is not certified. In light of the
predominance of common questions, alternatives to
class litigation would be more burdensome and less
efficient than participation in class litigation.
Thus, a class action is the superior method for adjudicating the claims of the proposed class members.
C. Rule 23(b)(2)
Rule 23(b)(2) requires that “the party opposing the
class ha[ve] acted or refused to act on grounds that
apply generally to the class, so that final injunctive

53a
relief or corresponding declaratory relief is appropriate respecting the class as a whole . . . .” The Eighth
Circuit has stated that, “[i]f the Rule 23(a) prerequisites have been met and injunctive or declaratory relief has been requested, the action usually should be
allowed to proceed under subdivision (b)(2).” DeBoer
v. Mellon Mortgage Co., 64 F.3d 1171, 1175 (8th Cir.
1995) (quoting 7A Charles Alan Wright & Arthur R.
Miller, Federal Practice and Procedure, § 1775 (1986)).
Although a Rule 23(b)(2) class is not required to
satisfy the additional predominance and superiority
requirements of Rule 23(b)(3), “the class claims must
be cohesive.” Ebert v. General Mills, Inc., 823 F.3d
472, 480 (8th Cir. 2016) (quotation marks and citation
omitted). In other words, “the relief sought must perforce affect the entire class at once.” Id. (emphasis
omitted, citing Dukes, 131 S. Ct. at 2558). Cohesiveness is lacking where “each individual class member
would be entitled to a different injunction or declaratory judgment against the defendant.” Id. at 480-81.
Because the terms of the Policy are the same for
all potential class members, the interpretation will result in one declaratory judgment applicable to all class
members. See Bond v. Liberty Ins. Corporation, No.
15-04236-NKL, 2017 WL 1628956, at *11 (W.D. Mo.
May 1, 2017), appeal denied, No. 17-8021, 2017 WL
5484786 (8th Cir. May 24, 2017) (finding that, “because the litigation involves a form contract, the interpretation will result in one declaratory judgment
and/or injunction applicable to all class members” and
the requirement of cohesiveness therefore was satisfied), appeal denied, No. 17-8021, 2017 WL 5484786
(8th Cir. May 24, 2017).
However, under Wal-Mart, a class may not be certified for a claim for individualized monetary relief

54a
that is not merely incidental to the declaratory relief
sought. 564 U.S. at 360-61. Vogt argues that declaratory relief in this case is “merely a prelude to a request for damages,” and the individual monetary
damages claims do not preclude certification, but the
only cases Vogt cites in support of this argument predate Dukes. See Berger v. Xerox Corp. Retirement Income Guarantee Plan, 338 F.3d 755, 763-64 (7th Cir.
2003); Senn v. AMCA Int’l, No. 87– 1353, 1988 WL
168321, at *5 n.2 (E.D. Wis. Dec. 21, 1988). The Court
therefore will certify a class pursuant to Rule 23(b)(3)
only as to Count IV, which seeks declaratory relief.
III. CONCLUSION
For the foregoing reasons, Vogt’s motion for class
certification is granted. Pursuant to Rule 23(b)(3), the
Court certifies a class of plaintiffs consisting of “[a]ll
persons who own or owned a universal life insurance
policy issued by State Farm on Form 94030 in the
State of Missouri” for all counts, except that the Excluded Persons are excluded from the class. Pursuant
to Rule 23(b)(2), the Court certifies a class of plaintiffs
consisting of “[a]ll persons who own or owned a universal life insurance policy issued by State Farm on
Form 94030 in the State of Missouri” for Count IV
alone, except that the Excluded Persons are excluded
from the class.
/s/ Nanette K. Laughrey
NANETTE K.
LAUGHREY United
States District Judge
Dated: April 20, 2018
Jefferson City, Missouri

55a

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF MISSOURI
CENTRAL DIVISION
MICHAEL VOGT, on behalf of
himself and all others similarly
situated,
Plaintiff,
v

No. 2:16-cv04170-NKL
Oct. 11, 2018

STATE FARM LIFE INSURANCE
COMPANY,
Defendant.
ORDER
On June 6, 2018, a judgment of $33,333,495.81
was entered in favor of the class on Plaintiffs’ claims
for breach of contract and conversion. Plaintiffs now
seek to alter or amend the judgment to add a class
definition, to add prejudgment interest, and to reduce
damages to account for class members who have opted
out. Plaintiffs’ Motion to Amend (Doc. 377) is granted
in part and denied in part.
I.

ANALYSIS
a. Class Definition

Plaintiffs want the judgment amended to include
the following class definition:
All persons who own or owned a universal life
insurance policy issued by State Farm on
Form 94030 in the State of Missouri. The

56a
Class excludes: State Farm; any entity in
which State Farm has a controlling interest;
any of the officers, directors, or employees of
State Farm; the legal representatives, heirs,
successors, and assigns of State Farm; anyone
employed with Plaintiffs’ counsel’s firms; and
any Judge to whom this case is assigned and
his or her immediate family. The Class also
excludes the owners of 487 policies that were
not subject to overcharges alleged by Plaintiffs (identified in Exhibit A) and the 55 policy
owners of 62 policies who timely requested exclusion from the class (identified in Exhibit B).
State Farm has no objection except for the request
involving the 487 policyholders who suffered no damages because they never paid an overcharge or their
overcharge was immediately refunded. State Farm
contends that the presence of these policyholders in
the definition of the class requires that the class be
decertified because they lack standing. Doc. 353
(State Farm’s Suggestions in Support of its Motion to
Decertify the Class), pp. 4-5. But any claim by the 487
policyholders was abandoned by the Plaintiffs before
trial, and was excluded from the class notice with the
agreement of State Farm. Effectively, although not
technically changed, the definition of the class was
functionally modified prior to the trial. Under these
circumstances, it is appropriate to formally amend the
class definition to exclude the 487 policyholders pursuant to Federal Rule of Civil Procedure 23(c)(1)(C).
This rule permits a court to modify the class definition
before the entry of a final judgment, including after a
trial on the merits. Garcia v. Tyson Foods, Inc., 890
F. Supp. 2d 1273, 1297 (D. Kan. 2012), aff’d, 770 F.3d
1300 (10th Cir. 2014) (collecting authorities); In re

57a
Urethane Antitrust Litigation, No. 04-1616, 2013 WL
2097346, at *2 (D. Kan. May 15, 2013), amended, No.
04-1616, 2013 WL 3879264 (D. Kan. July 26, 2013).
State Farm also asks to amend the definition of
the class to exclude State Farm’s independent contractor insurance agents who own or owned insurance
policies on policy form 94030. Plaintiffs do not object
to this amendment and the Court sees no reason to
deny State Farm’s request. The final judgment therefore is amended to include the following definition of
the class:
All persons who own or owned a universal life
insurance policy issued by State Farm on
Form 94030 in the State of Missouri. The
Class excludes: State Farm; any entity in
which State Farm has a controlling interest;
any of the officers, directors, or employees of
State Farm; the legal representatives, heirs,
successors, and assigns of State Farm; any
State Farm independent contractor insurance
agents; anyone employed with Plaintiffs’
counsel’s firms; and any Judge to whom this
case is assigned and his or her immediate family. The Class also excludes the owners of 487
policies that were not subject to overcharges
alleged by Plaintiffs (identified in Exhibit A)
and the 55 policy owners of 62 policies who
timely requested exclusion from the class
(identified in Exhibit B).
b. Reduction of damage award to reflect
opt-outs received after deadline
Plaintiffs seek to reduce the damages award to reflect that three class members opted-out after the
commencement of the jury trial. State Farm agrees

58a
that the damages award should be reduced as requested.
Therefore, the jury’s award of
$34,333,495.81 is reduced by $11,080.97, resulting in
a total damages award of $34,322,414.84.
c. Prejudgment Interest
Plaintiffs seek prejudgment interest for their
breach of contract claim and their conversion claim.
Prejudgment interest is authorized at a rate of nine
percent per annum for a breach of contract claim if the
amount of damages is liquidated and if no other rate
is agreed upon by the parties. See Mo. Rev. Stat.
§ 408.020 (“Creditors shall be allowed to receive interest at the rate of nine percent per annum, when no
other rate is agreed upon, for all moneys after they
become due and payable, on written contracts . . . .”).
This statute also applies to Plaintiffs’ conversion
claim. Stromberg v. Moore, 170 S.W.3d 26, 32 (Mo.
App 2005) (“In action for conversion, [t]he rate of allowable interest is that prescribed by Section
408.020”). For the conversion claim, there must also
be a demand for payment and “the judgment or order
[must exceed] the demand for payment . . . .” Mo. Rev.
Stat. § 408.040.
“[T]he burden is on the party seeking to avoid application of Section 408.020 to establish that the parties agreed to an alternative arrangement.” G & G
Mechanical Contractors, Inc. v. Jeff City Industry,
Inc., No. WD80840, 2018 WL 1384503, at *2 n.4 (Mo.
App. Mar. 20, 2018).
State Farm opposes the prejudgment interest request for three primary reasons. First, it argues that
the amount of damages was not liquidated because
the method for calculating damages was disputed by

59a
the parties. Second, it contends that prejudgment interest was already included in the jury’s damages
award because Plaintiffs’ expert’s damages model
added interest of more than 10 million dollars to the
class members’ accounts. Third, according to State
Farm, the insurance policy in dispute included a rate
of interest of four percent and Section 408.020 specifically provides that the nine percent statutory prejudgment interest is only permitted if the parties have
not agreed to a different rate of interest.
As to the third argument, Plaintiffs respond that
the contract only sets a minimum rate of interest and
therefore the parties did not agree to the actual rate
of interest to be applied. Further, even if they did
agree to a specific rate of interest for purposes of Section 408.020, Plaintiffs claim to be entitled to five percent more in interest to make up the difference between the four percent minimum to which they agreed
and the nine percent interest rate authorized by Section 408.020.
The Court rejects Plaintiffs’ arguments because
the parties agreed to a rate of interest in their contract. The policy provides for a minimum rate of interest. State Farm has discretion, but no obligation,
to exceed the minimum interest rate. The rate of interest to be paid thus is controlled by the terms of the
contract.
Because the evident purpose of Section 408.020 is
to provide for statutory interest only when the parties
have failed to set the rate of interest in their contract,
the fact that the exact numerical amount of interest is
not stated does not mean that the rate was not addressed in the contract. While there is no case on
point, Manfield v. AuditoriumB & Grill Inc., 965
S.W.2d 262, 269 (Mo. App. 1998), is instructive. In

60a
that case, the Missouri Court of Appeals found that no
prejudgment interest was permitted because the contract between the parties provided for zero percent interest. The Missouri Court of Appeals found that this
showed that the parties did not intend interest at a
different rate.
Here, the parties agreed that the interest would
be no less than four percent, necessarily leaving to
State Farm the right to set the rate of interest higher.
Therefore, the contract addressed whether interest
was payable and how that interest rate would be determined. Reading Section 480.020 as meaning that
providing for a minimum interest rate does not by contract resolve the interest to be paid is inconsistent
with the purpose of the statute.
Because the Court finds that Section 480.020 precludes prejudgment interest in this case, it will not
address State Farm’s other arguments as to why prejudgment interest should not be awarded.
d. Post-Judgment Interest
Plaintiffs seek post-judgment interest at the rate
of 2.23% compounded annually from the date of the
entry of judgment, June 6, 2018. State Farm has no
objection. Therefore, the judgment is amended to provide post-judgment interest at the rate of 2.23%, compounded annually beginning June 6, 2018 until paid.
e. Plaintiffs’ Plan of Allocation.
Plaintiffs ask the Court to approve Plaintiffs’ plan
for allocating the damages awarded by the jury. They
seek to have the damages distributed among the class
members in proportion to their losses after deducting
attorneys’ fees and non-taxable expenses that might
be awarded to class counsel, and any service award

61a
that might be given to Mr. Vogt. They ask the Court
to use Exhibit D to determine the losses sustained by
each class member. Exhibit D reflects Dr. Witt’s lost
Account Value calculation shown in Plaintiffs’ Exhibit
242 with a modification to reflect the six excluded policy holders who asked to be excluded after trial commenced. Plaintiffs propose to determine the pro-rata
share of each class member by using a fraction where
the numerator is each class member’s lost account
value as stated in Exhibit D plus each class member’s
share of post–judgment interest and the denominator
is the total damages awarded by the jury plus any post
judgment interest awarded by the Court. The total
amount of damages and post judgment interest (after
deduction of any attorneys’ fees and any non-taxable
expenses and any service award to Mr. Vogt that the
Court may award) is then multiplied by this fraction
to determine the award for each class member. This
calculation necessarily assumes that each class member will bear a pro-rata share of fees and expenses,
which the Court finds fair and reasonable. It also ensures that no class member receives a share if they did
not incur any loss in their account value.
Because State Farm cannot contest the method of
allocation (see Bouaphakeo v. Tyson Foods, Inc., 593
Fed. Appx. 578, 586 (8th Cir. 2014)), and because the
Court finds that the method of allocation is fair and
reasonable, the plan of allocation is approved.
Plaintiffs also ask for the appointment of Angeion
Group to oversee the distribution of net funds to the
class. Given their prior involvement and recent experience communicating with the class, the Court finds
that they should be appointed as requested.
Finally, Plaintiffs seek to shift to State Farm the
administrative cost of distributing damages to each

62a
class member. Plaintiffs’ request is denied without
prejudice. As State Farm says, if Plaintiffs’ request
were granted, it would give Plaintiffs’ a blank check
because the costs of distribution have not even been
estimated. Moreover, the request is not even limited
to the reasonable costs incurred by the administrator.
II. CONCLUSION
For the foregoing reasons, Plaintiffs’ motion to
amend the judgment is granted in part and denied in
part. The class definition is amended to read as follows:
All persons who own or owned a universal life
insurance policy issued by State Farm on
Form 94030 in the State of Missouri. The
Class excludes: State Farm; any entity in
which State Farm has a controlling interest;
any of the officers, directors, or employees of
State Farm; the legal representatives, heirs,
successors, and assigns of State Farm; any
State Farm independent contractor insurance
agents; anyone employed with Plaintiffs’
counsel’s firms; and any Judge to whom this
case is assigned and his or her immediate family. The Class also excludes the owners of 487
policies that were not subject to overcharges
alleged by Plaintiffs (identified in Exhibit A)
and the 55 policy owners of 62 policies who
timely requested exclusion from the class
(identified in Exhibit B).
The jury’s award is reduced to $34,322,414.84. The
judgment is amended to provide post-judgment interest at the rate of 2.23%, compounded annually beginning June 6, 2018 until paid. Plaintiff’s proposed
method of allocation and the proposal to appoint

63a
Angeion Group to oversee the distribution of net funds
to the class each are approved. Plaintiffs’ request for
additional prejudgment interest is denied without
prejudice.
/s/ Nanette K. Laughrey
NANETTE K. LAUGHREY
United States District Judge
Dated: October 11, 2018
Jefferson City, Missouri

64a

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF MISSOURI
CENTRAL DIVISION
MICHAEL VOGT, on behalf of
himself and all others similarly
situated,
Plaintiff,
v.

No. 2:16-cv04170-NKL
Oct. 11, 2018

STATE FARM LIFE INSURANCE
COMPANY,
Defendant.
ORDER
Pending before the Court is the defendant’s motion to decertify the class, Doc. 352. For the following
reasons, the motion is denied.
The class in this case was certified on April 20,
2018. Defendant argues that it should now be decertified because (1) some members of the class were not
injured; (2) Plaintiffs’ damages theory would cause an
increase in the cost of insurance for some members of
the class who had owned their policy for a longer period of time, creating an internal conflict of interest
between Plaintiff and some members of the class; and
(3) Plaintiffs’ damages theory would cause an intraclass conflict because State Farm allegedly pooled it
non-mortality factors.

65a
While Defendant’s motion for decertification was
pending, a jury returned a verdict for Plaintiffs in the
amount of $34,333,495.81. Doc. 171. That verdict
necessarily rejected Defendant’s argument that it
pooled its mortality rates before loading expenses and
profits.
I.

Legal Standard

To achieve class certification, plaintiffs must meet
Rule 23’s requirements of numerosity, commonality,
typicality, and fair and adequate representation. Fed.
R. Civ. P. 23(a). A plaintiff bears the initial burden of
showing that the class should be certified under Rule
23. Coleman v. Watt, 40 F.3d 255, 258 (8th Cir. 1994).
“Even after a certification order is entered, the judge
remains free to modify it in the light of subsequent
developments in the litigation.” Gen. Tel. Co. of Sw.
v. Falcon, 457 U.S. 147, 160, 102 S. Ct. 2364 (1982)
(footnote omitted); see also Fed. R. Civ. P. 23(c)(1)(C)
(“An order that grants or denies class certification
may be altered or amended before final judgment.”).
In Day v. Celadon Trucking Servs., Inc. 827 F.3d
817, 832 (8th Cir. 2017), the Eighth Circuit stated as
follows regarding the burden of proof on a motion for
decertification:
Generally, the proponent of a motion bears the
initial burden of showing that the motion
should be granted. Additionally, a district
court maintains an independent duty to assure that a class continues to be certifiable under Rule 23(a). The existence of this independent obligation lends further support for
requiring the movant to bear the burden of
showing that the district court mistakenly
maintained class certification. Moreover, a

66a
defendant bears a more onerous burden in
challenging certification where . . . the initial
certification decision was carefully considered
and made after certification-related discovery.
Id. (citation omitted).
II. Discussion
A. Whether Class Members Who Incurred
No Damages Have Standing
In Avritt v. Reliastar Life Ins. Co., 615 F.3d 1023,
1034 (8th Cir. 2010), the Eighth Circuit held that each
member of a class must have standing. To have standing, a class member must show an injury in fact “that
is fairly traceable to the challenged action of the defendant, and likely to be redressed by a favorable decision.” Braden v. Wal-Mart Stores, Inc., 588 F.3d 585,
591 (8th Cir. 2009). In the absence of such evidence,
there is no case or controversy, which is a prerequisite
for federal court jurisdiction.
State Farm argues that because some class members cannot show damages, they were not injured and
therefore the class should not be certified. Its argument is premised on the so-called cross-over credit
that the jury gave State Farm. The cross-over credit
is the set-off that State Farm received for months
when State Farm’s COI charge was lower than the
mortality-only rate. For 29 class members, this setoff resulted in no net damages. The Court permitted
this set-off argument even though State Farm had
never raised set-off as an affirmative defense.
The cross-over credit, however, does not mean
that these 29 class members were not injured. In the
months when their mortality-only COI was lower

67a
than what State Farm charged, they sustained an injury-in-fact. The only reason they did not sustain net
damages is because their injury was offset by the
months when their mortality-only rate was higher
than the COI charge State Farm levied. The fact that
that they did not sustain net damages does not mean
that they had no injury and no standing to resolve the
dispute. A defendant may prevail on an affirmative
defense, but that does not mean that there is no injury
in fact.
Moreover, even if damages cannot ultimately be
proved, that does not mean that there was no standing
to sue. See, e.g., Kohen v. Pac. Inv. Mgmt. Co., LLC,
571 F.3d 672, 677 (7th Cir. 2009) (“When a plaintiff
loses a case because he cannot prove injury the suit is
not dismissed for lack of jurisdiction.”); see also Commentary to Fed. R. Civ. P 23 (“If it turns out that some
members of the class are not entitled to relief, that
represents a failure on the merits, not the lack of a
justiciable clam.”); see also Ziggy1 Corp. v. Lynch, No.
15-0715, 2016 WL 4083656, at *1 (W.D. Okla. Mar. 23,
2016).
Finally, the Court finds instructive Buoaphakeo v.
Tyson Foods, Inc., 765 F.3d 791 (8th Cir. 2014), aff’d,
136 S. Ct. 1036. In that case, the Eighth Circuit approved class certification despite the fact that not all
members of the class incurred damages. Such a result
makes particular sense in a case like this, where only
29 out of nearly 24,000 class members were found not
to be entitled to net damages after a jury trial. The
appropriate course of action to ensure compliance
with Tyson Foods, Inc. is to not award damages to
those class members who were not damaged. It certainly is not appropriate to decertify a class for that
reason.

68a
As for the 487 Missouri-issued Form 94030 policy
owners who never paid a COI charge that included a
non-mortality charge or had such charges immediately refunded, they were excluded from the class before trial and no claim on their behalf was ever tried
or submitted to the jury. Effectively, Plaintiffs abandoned any claims for these policy owners recognizing
that they were not injured and State Farm did not oppose the abandonment. In fact, State Farm agreed
that the class notice would be modified to state that
“policy owners who did not suffer any harm” were excluded from the class. Now State Farm argues that
all 24,000 class members who were injured should be
denied the remedy found appropriate by the jury
simply because 487 policy owners were technically included in the class certification definition, although
their claims were abandoned before trial.
To the extent that there was any lack of clarity,
the Court concludes that it is in the interest of fairness, common-sense, and efficiency to identify the 487
policy owners and exclude them from the class to
avoid any technical dispute. Federal Rule of Civil Procedure 23(c)(1)(C) permits the court to modify the
class definition before the entry of a final judgment
and that includes after a trial on the merits. Garcia
v. Tyson Foods, Inc., 890 F. Supp. 2d 1273, 1297 (D.
Kan. 2012) aff’d, 770 F.3d 1300 (10th Cir. 2014) (collecting authorities); In re Urethane Antitrust Litigation, No. 04-1616, 2013 WL 2097346, at *2 (D. Kan.
May 15, 2013), amended, 2013 WL 3879264 (D. Kan.
1
July 26, 2013).

1

This matter will be addressed in the Court’s order resolving
Plaintiffs’ motion to amend the judgment.

69a
B. Whether There Is an Intra-Class Conflict
Because Some COI Rates Would Rise
Under Plaintiffs’ Damages Theory
State Farm argues that Plaintiffs’ damages theory
will result in an increased COI rate for some policy
owners going forward and therefore there is an intraclass conflict between short-term and long-term policy
owners who are members of the class. In other words,
some long-term policy owners may theoretically benefit from State Farm’s breach of contract going forward.
State Farm’s argument fails because this lawsuit
will not set rates going forward and, as State Farm
acknowledges, what State Farm will do in the future
is merely conjecture. See Doc. 387 (State Farm’s Reply in Support of Its Motion to Decertify the Class), p.
2. While it is expected that State Farm will comply
with its contractual obligations going forward, it
would be speculation to assume that including only
mortality factors in its COI rates would result in increased premiums for State Farm’s long term customers. What is not conjecture is that to date, nearly
24,000 class members received the benefit of their bargain by holding State Farm to its contractual agreement. Further, State Farm has always taken the position that it had discretion under the policy to set
rates at any level, so long as they were under the guaranteed maximum in the policy, and this lawsuit only
lowered that ceiling, to the benefit of all class members. Speculation about what might occur after final
judgment is entered is not a basis for finding that an
intra-class conflict currently exists.

70a
C. Whether State Farm’s Argument that It
Pooled Its Mortality Rates Creates an
Intra-Class Conflict
State Farm contends that it pooled its mortality
rates and as a result, some members of the class will
be disadvantaged by the Plaintiffs’ damages theory,
and therefore there is an intra-class conflict. It also
argues that because it pooled its mortality rate, the
named Plaintiff, Vogt, incurred no damages and
therefore is not an adequate representative.
State Farm’s argument fails because the jury
found that it did not pool its mortality rates. The
Court also rejects State Farm’s argument that by proposing a damages theory that is not based on pooling,
Plaintiffs created an intra-class conflict because the
potential existed that some class members would be
disadvantaged by a finding that State Farm did not
pool its mortality factors. State Farm does not explain
how arguing a fact that was found to be true creates
an intra-party conflict. The class representative cannot be faulted for failing to argue a fact that was found
untrue. Further, Plaintiffs’ position was supported by
the explanation in the actuarial memorandum that
State Farm submitted to New Jersey regulators showing that the unpooled 88-91 SF table formed the basis
for State Farm’s COI charge calculations.
*

*

*

Finally, issues related to State Farm’s other posttrial motions will be dealt with in the course of deciding those motions.

71a
III. Conclusion
For the reasons discussed above, State Farm’s motion to decertify the class, Doc. 352, is denied.
/s/ Nanette K. Laughrey
NANETTE K. LAUGHREY
United States District Judge
Dated: October 11, 2018
Jefferson City, Missouri

72a

APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF MISSOURI
CENTRAL DIVISION
MICHAEL VOGT, on behalf of
himself and all others similarly
situated,
Plaintiff,
v.

No. 2:16-cv04170-NKL
Oct. 12, 2018

STATE FARM LIFE INSURANCE
COMPANY,
Defendant.
JUDGMENT IN A CIVIL CASE
__ Jury Verdict. This action came before the
Court for a trial by jury.
X Decision by Court. This action came to trial
or hearing before the Court. The issues have been determined and a decision has been made.
IT IS ORDERED AND ADJUDGED that pursuant to the Order, Doc. 402, entered by the Honorable
Nanette K. Laughrey on October 11, 2018, State
Farm’s motion to decertify the class, Doc. 352, is denied. It is further
ORDERED that pursuant to the Order, Doc. 403,
entered by the Honorable Nanette K. Laughrey on October 11, 2018, State Farm’s Rule 50 motions for judgment as a matter of law and its Rule 59 motion for a
new trial, Docs 347 and 373, are denied. It is further

73a
ORDERED that pursuant to the Order, Doc. 404,
entered by the Honorable Nanette K. Laughrey on October 11, 2018, Plaintiffs' motion to amend the judgment (Doc. 377) is granted in part and denied in part.
The class definition is amended to read as follows: “All
persons who own or owned a universal life insurance
policy issued by State Farm on Form 94030 in the
State of Missouri. The Class excludes: State Farm;
any entity in which State Farm has a controlling interest; any of the officers, directors, or employees of
State Farm; the legal representatives, heirs, successors, and assigns of State Farm; any State Farm independent contractor insurance agents; anyone employed with Plaintiffs’ counsel’s firms; and any Judge
to whom this case is assigned and his or her immediate family. The Class also excludes the owners of 487
policies that were not subject to overcharges alleged
by Plaintiffs (identified in Exhibit A) and the 55 policy
owners of 62 policies who timely requested exclusion
from the class (identified in Exhibit B).” The jury's
award is reduced to $34,322,414.84. The judgment is
amended to provide postjudgment interest at the rate
of 2.23%, compounded annually beginning June 6,
2018 until paid. Plaintiff's proposed method of allocation and the proposal to appoint Angeion Group to
oversee the distribution of net funds to the class each
are approved. Plaintiffs’ request for additional prejudgment interest is denied.
Date: October 12, 2018
/s/ PAIGE WYMORE-WYNN
Clerk of Court
/s/ RENEA MATTHES MITRA
By: Renea Matthes Mitra, Courtroom Deputy

74a

APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-3419
Michael G. Vogt
Appellee
v.
State Farm Life Insurance Company
Appellant
----------------------------------Washington Legal Foundation, et al.
Amici on Behalf of Appellant(s)
Public Citizen
Amicus on Behalf of Appellee(s)
No: 18-3434
Michael G. Vogt
Appellant
v.
State Farm Life Insurance Company
Appellee
----------------------------------American Council of Life Insurers
Amicus on Behalf of Appellee(s)

75a
Appeal from U.S. District Court for the Western
District of Missouri - Jefferson City
(2:16-cv-04170-NKL)
(2:16-cv-04170-NKL)
ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
August 24, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

76a

APPENDIX G
Rule 23. Class Actions
(a) PREREQUISITES. One or more members of a
class may sue or be sued as representative parties on
behalf of all members only if:
(1) the class is so numerous that joinder of all
members is impracticable;
(2) there are questions of law or fact common to
the class;
(3) the claims or defenses of the representative
parties are typical of the claims or defenses of the
class; and
(4) the representative parties will fairly and
adequately protect the interests of the class.
(b) TYPES OF CLASS ACTIONS. A class action may be
maintained if Rule 23(a) is satisfied and if:
(1) prosecuting separate actions by or against
individual class members would create a risk of:
(A) inconsistent or varying adjudications
with respect to individual class members that
would establish incompatible standards of conduct for the party opposing the class; or
(B) adjudications with respect to individual
class members that, as a practical matter,
would be dispositive of the interests of the other
members not parties to the individual adjudications or would substantially impair or impede
their ability to protect their interests;

77a
(2) the party opposing the class has acted or refused to act on grounds that apply generally to the
class, so that final injunctive relief or corresponding declaratory relief is appropriate respecting the
class as a whole; or
(3) the court finds that the questions of law or
fact common to class members predominate over
any questions affecting only individual members,
and that a class action is superior to other available methods for fairly and efficiently adjudicating
the controversy. The matters pertinent to these
findings include:
(A) the class members’ interests in individually control- ling the prosecution or defense of
separate actions;
(B) the extent and nature of any litigation
concerning the controversy already begun by or
against class members;
(C) the desirability or undesirability of concentrating the litigation of the claims in the
particular forum; and
(D) the likely difficulties in managing a
class action.
(C) CERTIFICATION ORDER; NOTICE TO CLASS
MEMBERS; JUDGMENT; ISSUES CLASSES; SUBCLASSES.
(1) Certification Order.
(A) Time to Issue. At an early practicable
time after a person sues or is sued as a class
representative, the court must determine by order whether to certify the action as a class action.

78a
(B) Defining the Class; Appointing Class
Counsel. An order that certifies a class action
must define the class and the class claims, issues, or defenses, and must appoint class counsel under Rule 23(g).
(C) Altering or Amending the Order. An order that grants or denies class certification may
be altered or amended before final judgment.
(2) Notice.
(A) For (b)(1) or (b)(2) Classes. For any class
certified under Rule 23(b)(1) or (b)(2), the court
may direct appropriate notice to the class.
(B) For (b)(3) Classes. For any class certified
under Rule 23(b)(3) or upon ordering notice under Rule 23(e)(1) to a class proposed to be certified for purposes of settlement under Rule
23(b)(3) the court must direct to class members the best notice that is practicable under
the circumstances, including individual notice
to all members who can be identified through
reasonable effort. The notice may be by one or
more of the following: United States mail, electronic means, or other appropriate means. The
notice must clearly and concisely state in plain,
easily understood language:
(i) the nature of the action;
(ii) the definition of the class certified;
(iii) the class claims, issues, or defenses;
(iv) that a class member may enter an
appearance through an attorney if the member so desires;

79a
(v) that the court will exclude from the
class any member who requests exclusion;
(vi) the time and manner for requesting
exclusion; and (vii) the binding effect of a
class judgment on members under Rule
23(c)(3).
(3) Judgment. Whether or not favorable to the
class, the judgment in a class action must:
(A) for any class certified under Rule
23(b)(1) or (b)(2), include and describe those
whom the court finds to be class members; and
(B) for any class certified under Rule
23(b)(3), include and specify or describe those
to whom the Rule 23(c)(2) notice was directed,
who have not requested exclusion, and whom
the court finds to be class members.
(4) Particular Issues. When appropriate, an action may be brought or maintained as a class action with respect to particular issues.
(5) Subclasses. When appropriate, a class may
be divided into subclasses that are each treated as
a class under this rule.
(d) CONDUCTING THE ACTION.
(1) In General. In conducting an action under
this rule, the court may issue orders that:
(A) determine the course of proceedings or
prescribe measures to prevent undue repetition
or complication in presenting evidence or argument;
(B) require to protect class members and
fairly conduct the action giving appropriate notice to some or all class members of:

80a
(i) any step in the action;
(ii) the proposed extent of the judgment;
or
(iii) the members’ opportunity to signify
whether they consider the representation
fair and adequate, to intervene and present
claims or defenses, or to otherwise come into
the action;
(C) impose conditions on the representative
parties or on intervenors;
(D) require that the pleadings be amended
to eliminate allegations about representation of
absent persons and that the action proceed accordingly; or
(E) deal with similar procedural matters.
(2) Combining and Amending Orders. An order
under Rule 23(d)(1) may be altered or amended
from time to time and may be combined with an
order under Rule 16.
(e) SETTLEMENT, VOLUNTARY DISMISSAL, OR
COMPROMISE. The claims, issues, or defenses of a certified class or a class proposed to be certified for purposes of settlement may be settled, voluntarily dismissed, or compromised only with the court’s approval. The following procedures apply to a proposed
settlement, voluntary dismissal, or compromise:
(1) Notice to the Class.
(A) Information That Parties Must Provide
to the Court. The parties must provide the
court with information sufficient to enable it to
determine whether to give notice of the proposal to the class.

81a
(B) Grounds for a Decision to Give Notice.
The court must direct notice in a reasonable
manner to all class members who would be
bound by the proposal if giving notice is justified by the parties’ showing that the court will
likely be able to:
(i) approve the proposal under Rule
23(e)(2); and
(ii) certify the class for purposes of judgment on the proposal.
(2) Approval of the Proposal. If the proposal
would bind class members, the court may approve
it only after a hearing and only on finding that it
is fair, reasonable, and adequate after considering
whether:
(A) the class representatives and class counsel
have adequately represented the class;
(B) the proposal was negotiated at arm’s length;
(C) the relief provided for the class is adequate,
taking into account:
(i) the costs, risks, and delay of trial and appeal;
(ii) the effectiveness of any proposed method
of distributing relief to the class, including the
method of processing class-member claims;
(iii) the terms of any proposed award of attorney’s fees, including timing of payment; and
(iv) any agreement required to be identified under Rule 23(e)(3); and
(D) the proposal treats class members equitably
relative to each other.

82a
(3) Identifying Agreements. The parties seeking
approval must file a statement identifying any agreement made in connection with the proposal.
(4) New Opportunity to Be Excluded. If the class
action was previously certified under Rule 23(b)(3),
the court may refuse to approve a settlement unless it
affords a new opportunity to request exclusion to individual class members who had an earlier opportunity
to request exclusion but did not do so.
(5) Class-Member Objections.
(A) In General. Any class member may object
to the proposal if it requires court approval under
this subdivision (e). The objection must state
whether it applies only to the objector, to a specific
subset of the class, or to the entire class, and also
state with specificity the grounds for the objection.
(B) Court Approval Required for Payment in
Connection with an Objection. Unless approved by
the court after a hearing, no payment or other consideration may be provided in connection with:
(i) forgoing or withdrawing an objection, or
(ii) forgoing, dismissing, or abandoning an
appeal from a judgment approving the proposal.
(C) Procedure for Approval After an Appeal. If
approval under Rule 23(e)(5)(B) has not been obtained before an appeal is docketed in the court of
appeals, the procedure of Rule 62.1 applies while
the appeal remains pending.
(f) APPEALS. A court of appeals may permit an appeal from an order granting or denying class-action

83a
certification under this rule, but not from an order under Rule 23(e)(1). A party must file a petition for permission to appeal with the circuit clerk within 14 days
after the order is entered, or within 45 days after the
order is entered if any party is the United States, a
United States agency, or a United States officer or employee sued for an act or omission occurring in connection with duties performed on the United States’ behalf. An appeal does not stay proceedings in the district court unless the district judge or the court of appeals so orders.
(g) CLASS COUNSEL.
(1) Appointing Class Counsel. Unless a statute
provides otherwise, a court that certifies a class
must appoint class counsel. In appointing class
counsel, the court:
(A) must consider:
(i) the work counsel has done in identifying or investigating potential claims in the
action;
(ii) counsel’s experience in handling class
actions, other complex litigation, and the
types of claims asserted in the action;
(iii) counsel’s knowledge of the applicable
law; and
(iv) the resources that counsel will commit to representing the class;
(B) may consider any other matter pertinent
to counsel’s ability to fairly and adequately represent the interests of the class;
(C) may order potential class counsel to provide information on any subject pertinent to the

84a
appointment and to propose terms for attorney’s fees and nontaxable costs;
(D) may include in the appointing order provisions about the award of attorney’s fees or
nontaxable costs under Rule 23(h); and
(E) may make further orders in connection
with the appointment.
(2) Standard for Appointing Class Counsel.
When one applicant seeks appointment as class
counsel, the court may appoint that applicant only
if the applicant is adequate under Rule 23(g)(1)
and (4). If more than one adequate applicant seeks
appointment, the court must appoint the applicant
best able to represent the interests of the class.
(3) Interim Counsel. The court may designate
interim counsel to act on behalf of a putative class
before determining whether to certify the action as
a class action.
(4) Duty of Class Counsel. Class counsel must
fairly and adequately represent the interests of the
class.
(h) ATTORNEY’S FEES AND NONTAXABLE COSTS. In
a certified class action, the court may award reasonable attorney’s fees and nontaxable costs that are authorized by law or by the parties’ agreement. The following procedures apply:
(1) A claim for an award must be made by motion under Rule 54(d)(2), subject to the provisions
of this subdivision (h), at a time the court sets. Notice of the motion must be served on all parties
and, for motions by class counsel, directed to class
members in a reasonable manner.

85a
(2) A class member, or a party from whom payment is sought, may object to the motion.
(3) The court may hold a hearing and must find
the facts and state its legal conclusions under Rule
52(a).
(4) The court may refer issues related to the
amount of the award to a special master or a magistrate judge, as provided in Rule 54(d)(2)(D).

86a
APPENDIX H

HOME OFFICE: ONE STATE FARM PLAZA,
BLOOMINGTON, ILLINOIS 61710-0001
INSURED MICHAEL G
VOGT
(Male)
AGE 54
POLICY NUMBER LF -1722-5380
POLICY DATE October 6, 1999
INITIAL BASIC $100,000
AMOUNT
This policy is based on the application and the payment of premiums, as specified in the policy, while the
Insured lives. State Farm Life Insurance Company
will pay the proceeds to the beneficiary when due
proof of the Insured’s death is received.
30-Day Right to Examine the Policy. This policy
may be returned within 30 days of its receipt for a refund of all premiums paid. Return may be made to
State Farm Life Insurance Company or one of its
agents. If returned, this policy will be void from the
policy date.
Read this policy with care. This is a legal contract
between the Owner and State Farm Life Insurance
Company.

87a
/s/
Secretary
/s/
President
/s/
Registrar

BASIC PLAN DESCRIPTION
Flexible premium adjustable whole life insurance. A
death benefit is payable when the Insured dies. Flexible premiums are payable while the Insured is alive.
The basic plan is eligible for annual dividends.

88a
CONTENTS
PAGE
Policy Identification .................................................... 3
Schedule of Benefits .................................................... 3
Schedule of Premiums................................................. 3
Monthly Deductions .................................................... 3
Schedule of Surrender Charges .................................. 4
Cost of Insurance Rates and Monthly Charges ......... 4
Definitions ................................................................... 5
Ownership ................................................................... 5
Owner.
Change of Owner.
Death Benefit and Death Benefit Options ................. 6
Death Benefit.
Change in Basic Amount.
Death Benefit Options.
Change in Death Benefit Option.
Payment of Benefits .................................................. 7
Beneficiary Designation.
Methods of Payment.
Change of Beneficiary Designation.
Minimum Payment.
Order of Payment on the Insured’s Death.
Basis of Computation for Payments.
Additional Amounts Payable.
Premiums ................................................................... 9
Payment of Premiums.
Grace Period.
Premium Limitations.
Reinstatement.

89a
Guaranteed Values .................................................... 9
Account Value.
Cash Surrender Value.
Monthly Deduction.
Surrender Charge.
Cost of Insurance.
Withdrawals.
Monthly Cost of Insurance Rates.
Basis of Computation.
Interest.
Policy Loan ............................................................... 11
Loan.
Loan Interest.
Loan Value.
Loan Repayment.
General .................................................................... 11
The Contract.
Assignment.
Annual Report.
Error in Age or Sex.
Projection of Benefits and Values.
Incontestability.
Annual Dividends.
Limited Death Benefit.
Dividend Options.
The Application and any Riders and Endorsements follow page 12.

90a
POLICY IDENTIFICATION
Insured MICHAEL G
VOGT

Age

54

(Male)
Policy Num- LF-1722-5380
ber

Initial $100,000
Basic
Amount

Policy Date October 6, 1999
Issue Date October 6, 1999
SCHEDULE OF BENEFITS
Universal Life Basic Plan:
Death Benefit Option 1 (Basic Amount includes
the Account Value)
Basic Amount (Table 4 Rate Class-Male Non-Tobacco): $100,000
SCHEDULE OF PREMIUMS
The Initial Premium is $278.50.
Planned premiums are included in the schedule
shown below. The payment period for the planned
premiums is 1 month starting on November 6, 1999.
A premium expense charge of 5% is deducted from
each premium paid.

Beginning:

Total Premiums
For Policy Year

October 6, 1999

$1,800.00

91a
MONTHLY DEDUCTIONS
The deduction date is the 6th of each month.
Maximum monthly cost of insurance rates are shown
on page 4. The cost of insurance is deductible while
the policy is in force.
The monthly expense charge is $5.00.
NOTE: Insurance may terminate if premiums paid
are not sufficient to continue the insurance.
SCHEDULE OF SURRENDER CHARGES
Beginning

Beginning

Policy Policy Surrender Policy Policy Surrender
Year Month Charger Year Month Charger
1

1

$128.00

1

12 $1,536.00

1

2

256.00

2

1

1,536.00

1

3

384.00

3

1

1,536.00

1

4

512.00

4

1

1,344.00

1

5

640.00

5

1

1,152.00

1

6

768.00

6

1

960.00

1

7

896.00

7

1

768.00

1

8

1,024.00

8

1

576.00

1

9

1,152.00

9

1

384.00

1

10

1,280.00

10

1

192.00

1

11

1,408.00

11

1

0.00

92a
COST OF INSURANCE RATES AND MONTHLY
CHARGES
Maximum Monthly Cost of Insurance Rates
Per $1000
(Table 4 Rate Class-Male Non-Tobacco)
Age

Rate

Age Rate

Age Rate

Age

54

1.3080 66

3.9005 78 10.7452 90

23.9588

55

1.4280 67

4.2886 79 11.5319 91

25.4318

56

1.5630 68

4.6444 80 12.3619 92

27.0871

57

1.7032 69

5.0168 81 13.2582 93

29.1442

58

1.8494 70

5.4647 82 14.2523 94

32.1253

59

2.0142 71

5.9870 83 15.3424 95

36.8122

60

2.2009 72

6.5723 84 16.4875 96

45.4751

61

2.4130 73

7.2229 85 17.6847 97

63.4414

62

2.6423 74

7.8601 86 18.9063 98

73.4224

63

2.9097 75

8.4847 87 20.1262 99

83.3333

64

3.2054 76

9.2095 88 21.3254

65

3.5459 77

9.9577 89 22.5843

&
over

Rate

93a
DEFINITIONS
We, us, and our refer to State Farm Life Insurance
Company.
You and your refer to the Owner.
Application. Includes any life insurance application,
any application for change in the policy, medical history, questionnaire, and other documents from you or
any other person proposed for insurance which are
made a part of this policy.
Basic Amount. The Initial Basic Amount plus any
increases less any decreases.
Basic Amount Minimum. On or after the policy anniversary when the Insured is age 55, the Basic
Amount cannot be less than $25,000. Otherwise, the
Basic Amount cannot be less than $50,000.
Benefit Period Ends. The coverage for the benefit
extends to, but does not include, the policy anniversary in the year shown on page 3 under this heading.
Deduction Date. The policy date and each monthly
anniversary of the policy date.
Dollars. Any money we pay, or which is paid to us,
must be in United States dollars.
Effective Date. Coverage starts on this date.
Initial Basic Amount. The amount of coverage on
the Insured provided by the Basic Plan on the policy
date.
Insurance Amount. The amount of coverage on the
effective date of each rider shown on page 3.
Monthly Charge Deductible. A monthly charge for
any rider is deducted as part of the monthly deduction

94a
until the policy anniversary in the year shown on page
3.
Officer. The president, a vice president, the secretary, or an assistant secretary of State Farm Life Insurance Company.
Payee. On the Insured’s death, the beneficiaries
shown in the application, unless changed. If you cash
surrender this policy, the persons that you have
named. A payee can be other than a natural person
only if we agree.
Planned Premium. The premium amount that you
have chosen. This amount is shown on page 3 for the
payment period that you have chosen.
Policy Date. The effective date of this policy.
Policy Month, Year, or Anniversary. A policy
month, year, or anniversary is measured from the policy date.
Proceeds. The amounts payable on the death of the
Insured.
Rate Class. The underwriting class of the person insured. A rate class will be determined for the Initial
Basic Amount and each increase in the Basic Amount.
Request. A written request signed by the person
making the request. Such request must be sent to and
be in a form acceptable to us.
Rider. Any benefit, other than the Basic Plan, made
a part of this policy.

95a
OWNERSHIP PROVISIONS
Owner. The Owner is as named in the application, unless changed. You may exercise any policy
provision only by request and while the Insured is
alive.
Change of Owner. You may change the ownership of this policy by sending us a request while the
Insured is alive. We have the right to request this policy to make the change on it. The change will take
effect the date you sign the request, but the change
will not affect any action we have taken before we receive the request. A change of owner does not change
the beneficiary designation.
DEATH BENEFIT AND DEATH BENEFIT
OPTIONS PROVISIONS
Death Benefit. The amount of death benefit is an
amount of insurance based on the death benefit option
plus any insurance amounts payable under any riders
on the Insured and the part of the cost of insurance
for the part of the policy month beyond the Insured’s
death less any loan, accrued loan interest, and, if the
Insured dies during the grace period, the monthly deductions from the start of the grace period.
Death Benefit Options. There are two death benefit
options. If you do not choose an option, we will use
option 2. The account value on the date of death is
used in determining the amount of insurance.
Option 1. The amount of insurance will be the
greater of (1) the Basic Amount plus 95% of any premium received since the last deduction date plus interest earned on that amount of premium or (2) a percentage of the account value. Such percentage is

96a
based on the Insured’s age at the start of the current
policy year.
Option 2. The amount of insurance will be the
greater of (1) the Basic Amount plus the account value
or (2) a percentage of the account value. Such percentage is based on the Insured’s age at the start of the
current policy year.
Percentage of Account Value Table
Age
0-40
41
42
43
44
45
46
47
48
49
50
51
52
53
54
55
56
57
58
59
60

Percentage
250%
243%
236%
229%
222%
215%
209%
203%
197%
191%
185%
178%
171%
164%
157%
150%
146%
142%
138%
134%
130%

Age
61
62
63
64
65
66
67
68
69
70
71
72
73
74
75-90
91
92
93
94
95 & up

Percentage
128%
126%
124%
122%
120%
119%
118%
117%
116%
115%
113%
111%
109%
107%
105%
104%
103%
102%
101%
100%

97a
Change in Basic Amount. You may request a
change in the Basic Amount once each policy year.
The minimum amount of change is $25,000 for an increase and $10,000 for a decrease. For any change in
Basic Amount, we will send you a revised page 3 to be
placed with this policy.
If you request an increase, an application must be
completed, evidence of insurability satisfactory to us
must be furnished, and there must be enough cash
surrender value to make a monthly deduction which
includes the cost of insurance for the increase. No increases will be allowed after the policy anniversary
when the Insured is age 80. The revised page 3 will
show the amount of the increase and its effective date.
If you request a decrease, the Basic Amount remaining after the decrease cannot be less than the Basic
Amount Minimum. We reserve the right to not accept
a request for a decrease in the Basic Amount if such
decrease could result in this policy being disqualified
as a life insurance contract under any section of the
United States Internal Revenue Code, as amended
from time to time. Any decrease will first be used to
reduce the most recent increase. Then, the next most
recent increases will be reduced. Finally, the Initial
Basic Amount will be reduced. The revised page 3 will
show the amount of decrease and its effective date.
The decrease will take effect on the date we receive
the request.
Change of Death Benefit Option. You may request
a change of death benefit option once each policy year.
For a change in death benefit option, we will send you
a revised page 3 to be placed with this policy. The revised page will show the effective date of the change.

98a
If the change is to option 1, the Basic Amount will be
increased by the account value on the effective date of
the increase. We reserve the right to not accept a request for a change to option 1 if such change could result in this policy being disqualified as a life insurance
contract under any section of the United States Internal Revenue Code, as amended from time to time.
If the change is to option 2, the Basic Amount will be
decreased by the account value on the effective date of
the decrease.
PAYMENT OF BENEFITS PROVISIONS
Beneficiary Designation. This is as shown in the
application, unless you have made a change. It includes the name of the beneficiary and the order and
method of payment. If you name “estate” as a beneficiary, it means the executors or administrators of the
last survivor of you and all beneficiaries. If you name
“children” of a person as a beneficiary, only children
born to or legally adopted by that person will be included.
We may rely on an affidavit as to the ages, names, and
other facts about all beneficiaries. We will incur no
liability if we act on such affidavit.
Change of Beneficiary Designation. You may
make a change while the Insured is alive by sending
us a request. The change will take effect the date the
request is signed, but the change will not affect any
action we have taken before we receive the request.
We have the right to request your policy to make the
change on it.
Order of Payment on the Insured’s Death. When
the Insured dies, we will make payment in equal

99a
shares to the primary beneficiaries living when payment is made. If a primary dies after the first payment is made, we will pay that primary’s unpaid share
in equal shares to the other primaries living when
payment is made. If the last primary dies, we will
make payment in equal shares to the successor beneficiaries living when payment is made. If a successor
dies while receiving payments, we will pay that successor’s unpaid share in equal shares to the other successors living when payment is made. If, at any time,
no primary or successor is alive, we will make a one
sum payment in equal shares to the final beneficiaries. If, at any time, no beneficiary is living, we will
make a one sum payment to you, if living when payment is made. Otherwise, we will make a one sum
payment to the estate of the last survivor of you and
all beneficiaries. “When payment is made” means (1)
the date that a periodic payment is due or (2) the date
that a request is signed for a cash withdrawal or a one
sum payment. You may change this order of payment
by sending us a request while the Insured is alive.
Methods of Payment. We will pay the proceeds under the Interest method unless you choose another
method. If the payee is other than a natural person,
we will make payment under the One Sum method,
All payment intervals are measured from the date the
policy is surrendered or from the date the Insured
dies. No part of any payment can be assigned before
the payment is made.
After the Insured’s death, anyone who has the right to
make a withdrawal may change the method of payment and may name a successor to their interest. The
successor payee may be their estate.

100a
Method 1 (Interest Method). We will pay interest at the end of each monthly interval. The interest rate will be at least 31/2% a year. If chosen, we will
pay interest at the end of 3, 6, or 12 month intervals.
Withdrawals may be made at any time, but any withdrawal must be at least $500. We will pay interest to
the date of withdrawal on the amount withdrawn,
Method 2 (Fixed Years Method). We will make
equal payments at the end of each monthly interval
for a fixed number of years. These payments include
interest. The guaranteed interest rate is 31/2% a year.
The present value of any unpaid payments may be
withdrawn at any time.
FIXED YEARS TABLE
Monthly payments that $1000 will provide for the
number of years chosen. Payments for years not
shown will be given, if requested.
Years
1
2
3
4
5
6
7

Payments
$84.90
43.18
29.28
22.33
18.17
15.39
13.41

Years
8
9
10
15
20
25
30

Payments
$11.93
10.78
9.86
7.12
5.77
4.98
4.46

PAYMENT OF BENEFITS PROVISIONS
(CONTINUED)
Method 3 (Life Income Method). We will make
equal payments at the end of each monthly interval as
long as the payee is alive. We base the amount of each
payment on the payee’s age and sex at the start of the

101a
first monthly interval. We may require proof of the
payee’s age and sex. The payee may not withdraw the
present value of the payments. If the payee dies during a certain period, we will continue the payments to
the end of the certain period; or the successor payee
may have the present value of any remaining payments paid in one sum.
LIFE INCOME TABLE
Monthly payments for life that $1000 will provide.
Payments for ages not shown will be given, if requested.
Life
Age Last
Birthday
50
55
60
65
70
75

Male
$4.50
4.91
5.47
6.25
7.34
8.85.

Life with 10 Years
Certain

Female

Male

Female

$4.15
4.48
4.92
5.53
6.38
7.64

$4.46
4.84
5.34
5.98
6.76
7.62

$4.13
4.45
4.86
5.41
6.12
7.01

Method 4(Fixed Amount Method). We will
make equal payments at the end of 1, 3, 6, or 12 month
intervals. We will continue payments until the
amount put under this method together with compound interest has been paid. The interest rate will
be at least 31/2% a year. The payment interval chosen
must provide a total annual payment of at least $100
for each $1000 put under this method. The unpaid
balance may be withdrawn at any time.
Method 5 (Joint Life Income Method). We
will make equal payments at the end of each monthly

102a
interval as long as at least one of the two payees is
alive. We will base each payment on the age and sex
of both payees at the start of the first monthly interval. We may require proof of the age and sex of each
payee. The payees may not withdraw the present
value of any payments.
JOINT LIFE INCOME TABLE
Monthly payments that $1000 will provide as long as
at least one of the two payees S alive. Payments for
age combinations not shown will be given, if requested.
Female
Age Last
Birthday
Male
60
65
70
75

60

65

70

75

$4.45
4.60
4.71
4.79

$4.69
4.92
5.11
5.26

$4.91
5.24
5.56
5.83

$5.10
5.55
6.02
6.47

Method 6 (One Sum Method). We will pay the
cash surrender value or the proceeds in one sum. Interest at the rate of at least 31/2% a year will be paid
from the date of the Insured’s death to the date of payment.
Method 7 (Other Method). Payment by any
other method may be made if we agree.
Minimum Payment. If any payment, except the
last, under a method of payment would be less than
$100 per payee, we will pay the present value of any
unpaid payments in one sum.
Basis of Computation for Payments. The
monthly payments shown for methods 3 and 5 are

103a
guaranteed payments based on an interest rate of 3/%
a year and the 1983 Table a, projected 10 years using
Projection Scale G.
Any present values will be based on the interest rate
used in determining the payments for the method.
Additional Amounts Payable. Each year we may
apportion and pay dividends or additional interest under any method of payment.
PREMIUM PROVISIONS
Payment of Premiums. You may pay premiums at
our Home Office, a regional office, or to one of our
agents. We will give you a receipt signed by one of our
officers, if you request one.
The initial premium is shown on page 3 and is due on
the policy date. All other premiums may be paid in
any amount and at any time if:
(1) the amount is at least $25 and
(2) in a policy year, the total premiums, excluding
the initial premium, do not exceed without our
consent, the total Planned Premiums for a policy year.
Premium Limitations. We reserve the right to refund any premium paid if such premium amount
would result in this policy being disqualified as a life
insurance contract under any section of the United
States Internal Revenue Code, as amended from time
to time. No expense charge will be deducted from the
refunded premium.
Grace Period. If, on any deduction date, the
cash surrender value is not enough to cover the
monthly deduction, the policy will stay in force until
the end of the grace period. The grace period is 61

104a
days and starts on that deduction date. We will mail
a notice at least 31 days prior to the end of the grace
period to you and to any assignee of record. A premium large enough to cover the monthly deductions
for the grace period and any increase in the surrender
charges must be paid before the end of the grace period; otherwise, this policy will lapse and terminate
without value.
Reinstatement. If the policy is terminated at the
end of the grace period, you may apply to reinstate it
within 5 years after lapse. You must give us proof of
the Insured’s insurability that is satisfactory to us.
You must pay premiums (1) to keep the policy in force
for 2 months and (2) to pay the monthly deductions for
the grace period. Reinstatement will take effect on
the date we approve the application for reinstatement.
GUARANTEED VALUES PROVISIONS
Account Value. The account value on the policy date
is 95% of the initial premium less the monthly deduction for the first policy month.
The account value on any deduction date after the policy date is the account value on the prior deduction
date:
(1) plus 95% of any premiums received since the prior
deduction date,
(2) less the deduction for the cost of insurance for any
increase in Basic Amount and the monthly charges
for any riders that became effective since the prior
deduction date,
(3) less any withdrawals since the prior deduction
date,
(4) less the current monthly deduction,

105a
(5) plus any dividend paid and added to the account
value on the current deduction date, and
(6) plus any interest accrued since the prior deduction
date.
The account value on any other date is the account
value on the prior deduction date:
(1) plus 95% of any premiums received since the prior
deduction date,
(2) less the deduction for the cost of insurance for any
increase in Basic Amount and the monthly charges
for any riders that became effective since the prior
deduction date,
(3) less any withdrawals since the prior deduction
date, and
(4) plus any interest accrued since the prior deduction
date.
Monthly Deduction. This deduction is made each
month, whether or not premiums are paid, as long as
the cash surrender value is enough to cover that
monthly deduction. Each deduction includes:
(1) the cost of insurance,
(2) the monthly charges for any riders, and
(3) the monthly expense charge.

106a
GUARANTEED VALUES PROVISIONS
(CONTINUED)
Cost of Insurance. This cost is calculated each
month. The cost is determined separately for the Initial Basic Amount and each increase in Basic Amount.
The cost of insurance is the monthly cost of insurance rate times the difference between (1) and (2),
where:
(1) is the amount of insurance on the deduction
date at the start of the month divided by
1.0032737, and
(2) is the account value on the deduction date at
the start of the month before the cost of insurance and the monthly charge for any waiver of
monthly deduction benefit rider are deducted.
Until the account value exceeds the Initial Basic
Amount, the account value is part of the Initial Basic
Amount.
Once the account value exceeds that
amount, if there have been any increases in Basic
Amount, the excess will be part of the increases in order in which the increases occurred.
Monthly Cost of Insurance Rates. These rates for
each policy year are based on the Insured’s age on the
policy anniversary, sex, and applicable rate class. A
rate class will be determined for the Initial Basic
Amount and for each increase. The rates shown on
page 4 are the maximum monthly cost of insurance
rates for the Initial Basic Amount.
Maximum
monthly cost of insurance rates will be provided for
each increase in the Basic Amount. We can charge
rates lower than those shown. Such rates can be adjusted for projected changes in mortality but cannot

107a
exceed the maximum monthly cost of insurance rates.
Such adjustments cannot be made more than once a
calendar year.
Interest. An interest rate of at least 4% a year will
be applied to the account value. The rate applied to
the amount of account value up to the amount of any
loan may differ from the rate applied to the account
value in excess of the amount of any loan. We will
determine these rates at least once a year.
Cash Surrender Value. You may request surrender
of this policy at any time. This policy will terminate
on the date we receive the request or later date if you
so request it. We will pay you the cash surrender
value as of the date coverage ceases plus the monthly
deduction for the part of the policy month beyond that
date. We will pay you in one sum unless you choose
another method of payment. The cash surrender
value of this policy is its account value less any surrender charge and any loan and accrued loan interest.
The cash surrender value will not be less than zero. If
this policy is surrendered within 31 days after a policy
anniversary, the cash surrender value will not decrease within that period except for any loans or withdrawals. We may defer paying you the cash surrender
value for up to six months after receiving your request.
Surrender Charge. The schedule of surrender
charges is shown on page 4. For each increase in Basic
Amount, additional surrender charges will apply. The
revised page 4 will show a revised schedule of surrender charges which includes those additional charges.
Upon reinstatement, the surrender charges will be adjusted for any surrender charge deducted at the time

108a
of lapse. The revised page 4 will show a schedule of
the adjusted surrender charges.
Withdrawals. You may request to withdraw part of
the account value while this policy is in force. No more
than 4 withdrawals can be made in any policy year.
Any withdrawal must be at least $500 and must be
less than the cash surrender value. We may defer
paying you a withdrawal for up to six months unless
the withdrawal is to pay premiums on other policies
with us.
If death benefit option 1 is in effect, then the Basic
Amount will be reduced by the withdrawal, effective
with the date of the withdrawal. The reduction will
be made as if a decrease in the Basic Amount had been
requested.
GUARANTEED VALUES PROVISIONS
(CONTINUED)
Basis of Computation. The guaranteed values in this
policy are at least as large as those required by law in
the state where it is delivered. The insurance authority there has a statement of how these values are determined.
The guaranteed values and maximum cost of insurance rates are based on the Insured’s age last birthday
and sex, The interest rate is 4% a year. The Commissioners 1980 Standard Ordinary Mortality Table is
used. Modifications are made for rate classes other
than standard.

109a
POLICY LOAN PROVISIONS
Loan. You may borrow against this policy. This policy is the sole security for such loan. We may defer a
loan for up to 6 months after receiving your request
unless the loan will be used to pay premiums on other
policies with us.
You may borrow the loan value less any existing loan
and accrued interest and monthly deductions for the
next 2 months. If your unpaid loan plus accrued interest exceeds the loan value on the monthly deduction date, the Grace Period provision will apply.
Loan Value. The loan value is the account value of
this policy less the surrender charge.
Loan Interest. Interest accrues and is payable each
day at a rate of 8% a year. Any interest not paid is
added to the loan on each policy anniversary.
Loan Repayment. You may repay all or part of a
loan at any time before the Insured dies or the policy
is surrendered or terminated.
GENERAL PROVISIONS
The Contract. The policy contains the Basic Plan,
any amendments, endorsements, and riders, and a
copy of the application. A copy of any application for
a change to this policy will be sent to you to be placed
with the policy. Such applications become part of this
policy. The policy is the entire contract. We have relied on the statements in the application in issuing
this policy, We reserve the right to investigate the
truth and completeness of those statements. In the
absence of fraud, they are representations and not
warranties. Only statements in the application will
be used to rescind this policy or deny a claim.

110a
Only an officer has the right to change this policy. No
agent has the authority to change the policy or to
waive any of its terms. All endorsements, amendments, and riders must be signed by an officer to be
valid.
Annual Report. Each year, we will send you a report. This report will show:
(1) the account value, the cash surrender value,
any loan and accrued loan interest, and the
amount of the death benefit as of the date of
the report and
(2) any premiums paid, any deductions made,
and any withdrawals made since the last report.
Projection of Benefits and Values. You may request a projection of death benefits, account values,
and cash surrender values. We may charge a reasonable fee for providing this projection.
GENERAL PROVISIONS (CONTINUED)
Annual Dividends. We do not expect to pay dividends on this policy; however, we may apportion and
pay dividends each year. All dividends apportioned
will be derived from the divisible surplus of our participating business. Any such dividends will be paid
only at the end of the policy year. There is no right to
a partial or pro rated dividend prior to the end of the
policy year.
Dividend Options. You may choose to have your
dividend used under one of these options:
1. Cash. We will pay it to you in cash.
2. Addition to Account Value. We will add it to
the account value at the end of the policy year.

111a
If you do not choose an option or the option you choose
is not available, we will use option 2. You may request
to change the option. The change will apply only to
dividends paid after we receive the request.
Assignment. You may assign this policy or any interest in it. We will recognize an assignment only if it
is in writing and filed with us. We are not responsible
for the validity or effect of any assignment. An assignment may limit the interest of any beneficiary.
Error in Age or Sex. If the Insured’s date of birth
or sex is not as stated in the application, we will adjust
each benefit on the Insured to the benefit payable had
the Insured’s age and sex been stated correctly. Such
adjustment will be based on the ratio of the correct
monthly deduction for the most recent deduction date
for that benefit to the monthly deduction that was
made. For the Basic Plan, the adjustment is made to
the amount of insurance less the account value.
Incontestability. We will not contest the Basic Plan
after it has been in force during the Insured’s lifetime
for two years from the earlier of the policy date or the
issue date of the policy. We will not contest any increase in Basic Amount or reinstatement after it has
been in force during the lifetime of the Insured for two
years from the effective date of the increase in Basic
Amount or reinstatement. We will not contest an increase due to a change to Death Benefit Option 1. Any
contest of any increase in Basic Amount or reinstatement will be limited to material statements contained
in the application for such increase or reinstatement.
Each rider has its own incontestability provision.
Limited Death Benefit. If the Insured dies by suicide while sane or by self-destruction while insane
within two years from the earlier of the policy date or

112a
the issue date of the policy, the Basic Amount will not
be paid. The proceeds in this case will be limited to
the premiums paid on the Basic Plan less any loan,
accrued loan interest, any withdrawals from the account value, and any dividends paid on the Basic Plan.
Any increase in Basic Amount or amount reinstated
will not be paid if the Insured’s death results from suicide while sane or self-destruction while insane
within two years from the effective date of such increase or reinstatement. The proceeds of the increase
will be limited to the monthly deductions for the increase. This does not apply to an increase due to a
change to Death Benefit Option 1. The proceeds of a
reinstated policy will be limited to the premiums paid
on the Basic Plan since reinstatement less any loan,
accrued loan interest, any withdrawals from the account value, and any dividends paid on the Basic Plan.
Suicide or self-destruction is no defense to payment of
proceeds under this policy where this policy is issued
to a Missouri citizen, unless we can show that the Insured intended suicide or self-destruction when this
policy, an increase, or reinstatement was applied for.
Each rider has its own limited death benefit provision.

113a

STATE FARM LIFE INSURANCE COMPANY
AMENDMENT OF APPLICATION
I, Michael G Vogt, amend my application dated
August 30, 1999, as follows:
Issue with a Table 4 rating.
Issue without the Waiver of Monthly Deduction Benefit Rider.
I agree that this amendment will control over any conflicting language contained in the application. The
consideration for this amendment issuance of the policy with the above agreed upon changes.
Dated on ___________________at ___________________
_______________________________ __________________
Signature of Agent as witness Signature of Application or Owner
Policy No. LF-1722-5380
2-31-1634.2

114a

115a

116a

117a

BASIC PLAN DESCRIPTION
Flexible premium adjustable whole life insurance. A
death benefit is payable when the Insured dies. Flexible premiums are payable while the Insured is alive.
The basic plan is eligible for annual dividends.

